<html>
<title> - H.R. 221, ``HYDROGRAPHIC SERVICES IMPROVEMENT AMENDMENTS ACT''; H.R. 1176, ``KEEP AMERICA'S WATERFRONTS WORKING ACT''; AND S. 140, TO AMEND THE WHITE MOUNTAIN APACHE TRIBE WATER RIGHTS QUANTIFICATION ACT OF 2010 TO CLARIFY THE USE OF AMOUNTS IN THE WMAT SETTLEMENT FUND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






 
 H.R. 221, ``HYDROGRAPHIC SERVICES IMPROVEMENT AMENDMENTS ACT''; H.R. 
1176, ``KEEP AMERICA'S WATERFRONTS WORKING ACT''; AND S. 140, TO AMEND 
  THE WHITE MOUNTAIN APACHE TRIBE WATER RIGHTS QUANTIFICATION ACT OF 
    2010 TO CLARIFY THE USE OF AMOUNTS IN THE WMAT SETTLEMENT FUND

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, November 2, 2017

                               __________

                           Serial No. 115-26

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-441 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                 ------     
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 2, 2017.......................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Callender, Russell, Assistant Administrator for Ocean 
      Services, National Oceanic and Atmospheric Administration, 
      Washington, DC.............................................    19
        Prepared statement of....................................    21
    LePage, Hon. Paul, Governor, State of Maine, Augusta, Maine..    12
        Prepared statement of....................................    14
    Millar, David, Government Accounts Director, Fugro, 
      Frederick, Maryland........................................    27
        Prepared statement of....................................    29
    Pingree, Hon. Chellie, a Representative in Congress from the 
      State of Maine.............................................     7
        Prepared statement of....................................     8
    Snyder, Robert, President, Island Institute, Rockland, Maine.    23
        Prepared statement of....................................    25
    Velasquez, Hon. Kasey, Vice-Chairman, White Mountain Apache 
      Tribe, Whiteriver, Arizona.................................    15
        Prepared statement of....................................    17
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................    10
        Prepared statement of....................................    11

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    45
                                     





   LEGISLATIVE HEARING ON H.R. 221, TO REAUTHORIZE THE HYDROGRAPHIC 
       SERVICES IMPROVEMENT ACT OF 1998, AND FOR OTHER PURPOSES, 
  ``HYDROGRAPHIC SERVICES IMPROVEMENT AMENDMENTS ACT''; H.R. 1176, TO 
 AMEND THE COASTAL ZONE MANAGEMENT ACT OF 1972 TO ESTABLISH A WORKING 
WATERFRONT TASK FORCE AND A WORKING WATERFRONTS GRANT PROGRAM, AND FOR 
OTHER PURPOSES, ``KEEP AMERICA'S WATERFRONTS WORKING ACT''; AND S. 140, 
 TO AMEND THE WHITE MOUNTAIN APACHE TRIBE WATER RIGHTS QUANTIFICATION 
 ACT OF 2010 TO CLARIFY THE USE OF AMOUNTS IN THE WMAT SETTLEMENT FUND

                              ----------                              


                       Thursday, November 2, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:37 a.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Wittman, Gosar, Bishop; 
Huffman, Beyer, and Bordallo.
    Also present: Representatives Young; and Pingree.
    Mr. Lamborn. The Water, Power and Oceans Subcommittee meets 
today to hear testimony on H.R. 221, sponsored by 
Representative Don Young of Alaska; H.R. 1176, sponsored by 
Representative Pingree of Maine; and Senate Bill 140, sponsored 
by Senator Flake of Arizona.
    I want to thank you all for your patience. This was 
originally set for 10:00 a.m., but we had a very important and 
very exciting Republican conference that I had to be at, and 
those on my side of the aisle had to be at this morning. We did 
not anticipate that, but there were last-minute changes earlier 
in the week to today. So, thank you for your indulgence, thank 
all of you for being here, either in the audience or to 
testify.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chair. Therefore, I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Subcommittee Clerk by 5:00 
p.m. today.
    Without objection, so ordered.
    We will begin with opening statements, starting with 
myself, for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. The Water, Power and Oceans Subcommittee meets 
today to consider three bills that nearly span the wide range 
of our Subcommittee's jurisdiction.
    The first bill we will consider today is H.R. 221, the 
Hydrographic Services Improvement Amendments Act, introduced by 
our colleague, Don Young of Alaska. This bill, championed by 
the Alaska delegation in the House--the entire delegation--and 
the Senate reauthorizes NOAA's critical ocean surveying and 
mapping program.
    Congress first authorized ocean surveys in U.S. waters more 
than 200 years ago. Since then, this program has collected 
critical data on the ocean floor and navigation channels that 
have supported a myriad of ocean-related economic activities 
such as fishing, trade, and energy development.
    While NOAA has covered a lot of ground with this program, 
inferior techniques and technologies have aided in a 
significant backlog of U.S. waters that are not adequately 
mapped. We will hear testimony today on the real dangers that 
are presented when our Nation's navigation channels are 
improperly mapped, or have features that are not even mapped at 
all.
    While it may not be a surprise that a Federal agency has 
been slow to adopt efficient techniques and technologies, the 
private sector has stepped up to the challenge to help NOAA 
chip away at their dangerous backlog under this program. Mr. 
Young's bill supports the partnership between NOAA and 
companies such as Fugro that have access to the resources and 
advanced technologies that can map the ocean floor in a 
fraction of the time, and likely cheaper than it would take the 
Federal Government to conduct the same surveys.
    Today, we will also consider H.R. 1176, the Keep America's 
Waterfronts Working Act, introduced by Ms. Pingree of Maine. 
This bill establishes a grant program within the Coastal Zone 
Management Act for states to utilize and preserve working 
waterfronts in the 35 eligible coastal and Great Lakes states. 
This bill also establishes a Federal task force led by the 
Secretary of the Interior to identify and address state needs 
with respect to working waterfronts.
    While the Coastal Zone Management Program has largely been 
a state-driven program, this bill inserts layers of Federal 
bureaucracy that seem to run counter to the congressional 
intent of the original Act. It is unclear why, under the bill, 
the Department of the Interior is responsible for the Federal 
task force, while the Department of Commerce administers the 
grant program. We will need to clarify and discuss how the 
working waterfronts covenants required under the bill would 
impact private property rights for waterfront owners.
    I do look forward to gaining a better understanding of 
these and other provisions within the bill, and I want to thank 
Congresswoman Pingree for coming before the Subcommittee today 
to testify on her bill.
    I would also like to recognize and thank Governor LePage of 
Maine for taking the time out of his busy schedule to come to 
DC to testify before our Subcommittee on this legislation. I 
cannot overstate how critical it is, especially for this 
Committee, to have a state perspective on resource management 
activities. Whether it is the Endangered Species Act management 
in the West, or management of our coastal resources in the 
East, state input is invaluable.
    Finally, the Subcommittee will consider Senate Bill 140, 
sponsored by Senator Flake of Arizona. This bill amends the 
White Mountain Apache Tribe's standing water rights settlement 
to clarify a use of funds already allocated under that 
settlement to complete the Tribe's rural water system. While 
this bill is merely a technical correction, we will hear today 
how important it is for the Tribe to finish construction of 
their water system.
    I want to thank the witnesses for traveling here to be with 
us today. Your input is extremely valuable as we work through 
the legislative process. I look forward to hearing your 
testimony.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    The Water, Power and Oceans Subcommittee meets today to consider 
three bills that nearly span the wide range of our Subcommittee's 
jurisdiction.
    The first bill we will consider today is H.R. 221, the Hydrographic 
Services Improvement Amendments Act, introduced by our colleague Don 
Young of Alaska. This bill, championed by the Alaska delegation in the 
House and the Senate, reauthorizes NOAA's critical ocean surveying and 
mapping program. Congress first authorized ocean surveys in U.S. waters 
more than 200 years ago. Since then, this program has collected 
critical data on the ocean floor and navigation channels that have 
supported a myriad of ocean-related economic activities such as 
fishing, trade, and energy development.
    While NOAA has covered a lot of ground with this program, inferior 
techniques and technologies have resulted in a significant backlog of 
U.S. waters that are not adequately mapped. We will hear testimony 
today on the real dangers that are presented when our Nation's 
navigation channels are improperly mapped or have features that are not 
mapped at all. While it may not be a surprise that a Federal agency has 
been slow to adopt efficient techniques and technologies, the private 
sector has stepped up to the challenge to help NOAA chip away at their 
dangerous backlog under this program. Mr. Young's bill supports the 
partnership between NOAA and companies such as Fugro that have access 
to the resources and advanced technologies that can map the ocean floor 
in a fraction of the time--and usually at a fraction of the cost--that 
it would take the Federal Government to conduct the same surveys.
    Today, we will also consider H.R. 1176, the Keep America's 
Waterfronts Working Act, introduced by Ms. Pingree of Maine. This bill 
establishes a grant program within the Coastal Zone Management Act for 
states to utilize and preserve working waterfronts in the 35 eligible 
coastal and Great Lakes states. This bill also establishes a Federal 
task force--led by the Secretary of the Interior--to identify and 
address state needs with respect to working waterfronts. While the 
Coastal Zone Management Program has largely been a state-driven 
program, this bill inserts layers of Federal bureaucracy that seem to 
run counter to the congressional intent of the original Act. It is 
unclear why--under the bill--the Department of the Interior is 
responsible for the Federal task force, while the Department of 
Commerce administers the grant program. We also need to clarify how the 
``working waterfront covenants'' required under the bill would impact 
private property rights for waterfront owners. I look forward to 
gaining a better understanding of these and other provisions within the 
bill, and I want to thank Congresswoman Pingree for coming before the 
Subcommittee today to testify on her bill.
    I also want to recognize and thank Governor LePage of Maine for 
taking the time out of his busy schedule to come down to DC to testify 
before our Subcommittee on this legislation. I cannot overstate how 
critical it is--especially for this Committee--to have a state 
perspective on resource management activities. Whether it is Endangered 
Species Act management in the West or management of our coastal 
resources in the East, your input is invaluable.
    Finally, the Subcommittee will consider S. 140, sponsored by 
Senator Flake of Arizona. This bill amends the White Mountain Apache 
Tribe's standing water rights settlement to clarify a use of funds 
already allocated under that settlement to complete the Tribe's rural 
water system. While this bill is merely a technical correction, we will 
hear today how important it is for the Tribe to finish construction of 
their water system.
    I want to thank the witnesses for traveling here to be with us 
today. Your input is extremely valuable as we work through the 
legislative process, and I look forward to hearing your testimony.

                                 ______
                                 

    Mr. Lamborn. I would now like to recognize the Ranking 
Member, Mr. Huffman of California, for 5 minutes for his 
statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman, and good morning. 
Welcome to the witnesses. I appreciate the fact that we are 
here today talking about bills that have bipartisan support, 
and that is a good thing. I think there is a lot of work we can 
do together with this Subcommittee, and I am grateful for the 
opportunity to talk about bills that reflect that kind of 
bipartisan problem-solving opportunity.
    Starting with H.R. 1176, Keep America's Waterfronts Working 
Act, by Ms. Pingree, this is a bipartisan attempt to provide 
much-needed Federal support for working waterfronts across our 
country. I thank Ms. Pingree for this. She is thinking about, 
of course, the working waterfronts in Maine, but I have some 
wonderful working waterfronts in my district in Northern 
California, as well. And I think they would benefit a lot from 
this piece of legislation.
    Commercial fishermen, of course, need a place to land their 
catch. Recreational anglers need to rely on harbors and marinas 
to reach their favorite fishing spots. Aquaculture, 
boatbuilding, and tourism businesses all depend on safe harbors 
and access to coastal waters.
    It is important to remember that these and other coastal 
and ocean industries employ over 2 million people in this 
country and contribute over $200 billion to our economy every 
year. This bill establishes the first Federal program to 
protect and improve working waterfronts that are so integral to 
these coastal economies. It would also protect public access, 
promote community participation, and bring together Federal, 
state, and local partners to collaborate on revitalizing these 
waterfronts.
    Bringing together this kind of collaboration and this team 
is not bureaucracy, it is forward thinking legislation that can 
really make a difference for these communities and these 
waterfronts and for our economy.
    You know, it is interesting. In my district, we are very 
clear that everybody shares and depends on a healthy, well-
managed coast. We have some of the best shellfish growers in 
America in Humboldt and Tomales Bays. And they are right next 
to kayakers, surfers, and bird watchers. And that is all right 
next to some of the most expansive seagrass beds and sensitive 
estuarine ecosystems. Fishing vessels that I see docked in 
Bodega Bay and Trinidad are neighbors to local restaurants that 
serve fresh seafood.
    And all of this works together, and it is exactly this kind 
of balanced and diverse use that makes our waterfronts the 
heart of many coastal communities in my district and beyond.
    So, I think this is a great bill. I like the fact that it 
recognizes the historic, social, and economic importance of 
waterfronts, recognizes the importance of Federal investments. 
The Coastal Zone Management Act has helped states work with 
Federal Government to best manage these areas for several 
decades, and I think it is appropriate that this bill expands 
the scope of this Act to protect and promote working 
waterfronts.
    I also look forward to discussing H.R. 221, Mr. Young's 
Hydrographic Services Improvement Amendments Act, also an 
important subject. It reauthorizes funding for vital navigation 
and safety services for NOAA's Office of Coast Survey. This is 
an important arm of the Federal Government. It maintains over 
1,000 charts and publications used by Federal and state 
agencies, private organizations, and the public.
    It is no small feat to do this for our Nation's 95,000 
miles of shoreline and 3.4 million square nautical miles of 
water. So, I want to thank Chairman Young for introducing this 
bill. I think it is really important that we ensure Federal 
capacity for hydrographic surveys, for mapping and charting. 
These vessels do a wide range of activities and inform 
decisions with a lot of economic, environmental, and safety 
impacts.
    And then, finally, Senator Flake's S. 140. This is a bill 
that clarifies the funding that Congress has already authorized 
important to protect drinking water interests in Indian 
Country. I think this is a good bipartisan piece of 
legislation, and I look forward to discussing it and the other 
bills this morning.
    With that, I will yield the balance of my time and thank 
you, Mr. Chairman.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman.
    I am glad to see bipartisan support for the bills that we are 
discussing today. We don't always agree on legislation in this 
Subcommittee, but there are ways that we can and should work together. 
I'd like to thank my colleagues for making that happen.
    I'll start with H.R. 1176, the Keep America's Waterfronts Working 
Act. This bipartisan bill provides much-needed Federal support for 
working waterfronts across the Nation, from Maine to my district in 
California. Working waterfronts are essential to coastal businesses and 
communities. Commercial fishermen need a place to land their catch, 
recreational anglers rely on harbors and marinas to reach their 
favorite fishing spots, and aquaculture, boat building, and tourism 
businesses all depend on safe harbors and access to coastal waters.
    These and other coastal and ocean industries employ over 2 million 
Americans and contribute over $200 billion to our economy each year. 
This bill would establish the first Federal program to protect and 
improve the working waterfronts that are integral to our coastal 
economies. It would also protect public access, promote community 
participation, and bring together Federal, state, and local partners to 
collaborate on waterfront revitalization efforts.
    Productive working waterfronts in my district demonstrate the 
importance of planning and cooperation. These coastal communities are 
able to balance economic development, the environment, and public 
access and recreation because everyone shares and depends on a healthy, 
well-managed coast. We have some of the best shellfish growers in 
Humboldt and Tomales Bays, where there are also kayakers, surfers, and 
bird watchers among expansive seagrass beds and estuarine ecosystems. 
Fishing vessels docked at harbors from Bodega Bay to Trinidad are 
neighbors to local restaurants serving fresh seafood and residents 
fishing from a nearby pier. It is exactly these kinds of balanced and 
diverse uses that make waterfronts the heart of many coastal 
communities in my district and beyond.
    In summary, H.R. 1176 recognizes the historic, social, and economic 
importance of waterfronts and provides the support that states need to 
maintain them. Coastal communities have weathered their share of tough 
conditions, but Federal investment ensures that they remain resilient, 
especially as changing oceans and increasing development threaten 
businesses. The Coastal Zone Management Act has helped states work with 
the Federal Government to best manage their coastal assets for the past 
few decades, and it is fitting that this bill expands the scope of this 
Act to protect and promote working waterfronts as part of effective 
coastal zone management.
    I also look forward to discussing H.R. 221, the Hydrographic 
Services Improvement Amendments Act. This bill reauthorizes funding for 
vital navigation and safety services of NOAA's Office of Coast Survey, 
which maintains over a thousand charts and publications used by Federal 
and state agencies, private organizations, and the public. It is no 
small feat to do this for our Nation's 95,000 miles of shoreline and 
3.4 million square nautical miles of water.
    I'd like to thank my colleague Chairman Young for introducing this 
bill. It is critical that we ensure Federal capacity for hydrographic 
surveys, mapping, and charting. NOAA vessels and data support a wide 
range of activities and inform decisions with significant economic, 
environmental, and safety impacts.
    As we face rapidly changing ocean conditions, hydrographic services 
will only become more important. This is particularly true in the 
Arctic, where we will eventually see ice-free summers. It is not a 
matter of if, but when and how soon. With that comes an entirely new 
seascape for maritime commerce and transport, defense, and natural 
resources. This bill allocates specific amounts to Arctic surveys, but 
I am concerned that the current language may constrain NOAA's capacity 
in the region, and I hope to discuss this further today.
    Last, we'll hear about S. 140. This bill makes a small change to a 
previously-approved water rights settlement in order to allow the White 
Mountain Apache Tribe in Arizona to complete work on a rural water 
system. Specifically, the bill clarifies that funding Congress has 
already authorized for ``water-related economic development'' projects 
can be used to cover possible construction cost over-runs associated 
with the Tribe's main water project, which will provide drinking water 
supplies for tribal members once completed. I'm glad we're discussing 
this bill today, and I welcome future discussions on this Subcommittee 
about Indian water rights settlements and the serious problem of 
drinking water shortages in Indian Country.
    With that, I'd like to thank all of our witness for being here 
today. I look forward to a productive discussion.
    I yield back.

                                 ______
                                 

    Mr. Lamborn. All right. Thank you. We will now move to our 
first witness panel to hear testimony from Ms. Pingree of Maine 
on her bill.
    As a reminder, you are limited to 5 minutes, but your 
written statement will appear in full in the hearing record. 
Ms. Pingree, you are now recognized for 5 minutes to testify on 
H.R. 1176.

  STATEMENT OF THE HON. CHELLIE PINGREE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Ms. Pingree. Thank you very much, Chairman Lamborn and 
Ranking Member Huffman and to the other members of the 
Committee and to Mr. Young, who is with the Committee here 
today. Chairman Young, I sometimes call Maine Alaska Lite 
because our states have an awful lot in common, only everything 
there is bigger and colder.
    I am very happy to testify on the Keep America's 
Waterfronts Working Act to talk a little bit about some of the 
things you have already discussed, the importance of supporting 
our working waterfronts, supporting our coastal communities, 
which I think this Committee is very well aware of, and hear 
from constituents across the country about the importance of 
people who make their living on the waterfront, whether it is 
boatbuilders on the West Coast, recreational fishermen in the 
Gulf of Mexico, commercial fishermen in the Gulf of Maine, the 
refrain is always the same: Water-dependent businesses along 
the coast need help in preserving and protecting their vital 
waterfront access.
    I wanted to start by just quickly showing a video, with the 
indulgence of the Committee, and then I will just have a few 
comments after that.
    So, if we could make the technology work.
    [Video shown.]
    Ms. Pingree. Thank you. And if that doesn't make you want 
to visit the coast of Maine and have some delicious lobster--I 
am sure the Governor would join me in welcoming you to our 
state any time.
    But as you heard from the fishermen, it is a simple 
concept. When the working waterfront is gone, there is no way 
to replace it. And once it disappears, there is just no way to 
bring it back.
    As you heard, that is not just true in Maine. In 2009, when 
the National Working Waterfront Network compiled their 
statistics, they found that communities with working 
waterfronts support 3.4 percent of the country's GDP, almost 5 
percent of total U.S. employment.
    In Maine, specifically, it is our hardworking fishermen and 
lobstermen, an industry worth about $700 million in overall 
value, including a dockside value of about $533 million.
    But we have other waterfront industries. Boatbuilding, one 
of our state's oldest industries, we have about 80 boatbuilders 
who employ 1,400 workers with wages totaling about $59 million. 
And others, industries like marinas, energy-related industries, 
shipping, things that happen in all states.
    At the state level we have the Maine Working Waterfront 
Access Protection Program, something all states should have, 
but we need more support. In this bill, I see a role for the 
Federal Government, not duplicating the efforts of the state, 
but maximizing dollars. The grant program that we have created 
is voluntary and allows states to decide if they want to 
participate in it. The working waterfront plans allow each 
state, rather than Congress or the Federal Government, to say 
what kinds of working waterfronts are important to that state.
    I think the Federal Government should support states in 
these efforts and encourage states to consider the importance 
of supporting working waterfront infrastructure while 
recognizing each state has different needs.
    I have been pleased to work on this bill with many of my 
colleagues in Congress over the years that I have been here, 
and have Congressman Wittman of Virginia, another waterfront 
state, as a participant and lead co-sponsor on this bill. It is 
a bipartisan bill, it would establish a working waterfronts 
grant program, and it would create a Working Waterfront Task 
Force that would bring many of the agencies together to work 
together and come to the table.
    It is true that NOAA already has a Coastal Zone Management 
Program to address this effort. What this would do is make sure 
that some of the funds are dedicated specifically for this 
work.
    I live on an island off the coast of Maine, and we have 14 
year-round islands. I take a ferry that is an hour to get home. 
It is in the heart of the lobster-landing territory of the 
world, another reason you should come and visit, because it 
just doesn't get any better. But I have seen families who are 
stretched, who cannot afford to pay for the property taxes, who 
are the last holders of working waterfront.
    In my town, the little bit of working waterfront that we 
have is where fishermen get their repairs, where they fuel up, 
where oil and gas is delivered to our community by boat. It is 
a critical part of both our recreational and commercial life in 
our community and in so many others.
    I am just going to close with a quote from a lobsterman in 
Friendship, Maine, another serious lobster fishing community of 
about 1,100 people. He said, ``As a lobsterman working on the 
regional ocean planning process, I've always said that 
fishermen need two basic things: a healthy stock to fish on, 
and the ability to access that resource. The access begins in 
the harbor at the shoreline. Without places to work on, store, 
load and unload their catch, gear, and boats, fishing, as we 
know it in Maine, will cease to exist.'' And that would be true 
in many other places.
    Again, I thank you for your indulgence, and I appreciate 
your taking up this bill today.

    [The prepared statement of Ms. Pingree follows:]
  Prepared Statement of the Hon. Chellie Pingree, a Representative in 
             Congress from the State of Maine on H.R. 1176
    Thank you, Chairman Lamborn and Ranking Member Huffman, for 
allowing me to testify today about the Keep America's Waterfronts 
Working Act and the issue of working waterfronts generally. This is an 
important issue that I have been working on since coming to Congress. 
And I am eager to talk about it, and call attention to it whenever I 
can.
    This Subcommittee knows well the importance of supporting our 
coastal communities. You hear on a regular basis, from constituents 
from across the country who make their living on the water. Whether 
they are boatbuilders from the West Coast, or recreational fishermen in 
the Gulf of Mexico, or commercial fishermen in the Gulf of Maine, the 
refrain is the same--that our water-dependent businesses along our 
coasts need help in preserving and protecting vital waterfront access.
    I have a short 1-minute video that is actually produced by the 
Island Institute in my state, and that you will hear from in a later 
panel, to explain a little bit more about what a Working Waterfront is 
and what it means in Maine.
    Could the Clerk please start the video, and I thank the Chair and 
the staff for their indulgence in allowing it.
    [VIDEO PLAYS.]
    So, as you can see, the men and women who work on the waterfront 
want to STAY there--these are their communities and their work.
    Unfortunately, waterfront access is quickly disappearing under 
pressure from incompatible development. Our fishermen already have 
concerns about changes in the oceans, storm surge OR migration patterns 
in fish, OR changes in their lobstertraps--things they have never seen 
before in their traps. But when you add to these issues, the loss of 
access, it truly puts our communities, and their economies at risk.
    According to the National Working Waterfront Network, in 2009 when 
they compiled their statistics on the footprint of Working Waterfronts 
they found that these communities support over 3.4 percent of the 
country's total GDP. They also found that they support almost 5 percent 
of total U.S. employment.
    For Maine, specifically, we rely on our hardworking fishermen and 
lobstermen. Our commercial fishery is part of our core. In 2016, 
Maine's fishing industry topped $700 million in overall value, 
including a dockside value for the lobster fishery of $533 million.
    Boatbuilding is one of the state's oldest industries, and we have 
nearly 80 boat builders employing nearly 1,400 workers, with wages 
totaling about $59 million.
    Maine's aquaculture sector has a direct economic impact of $73.4 
million in output, and over 550 jobs. This is an industry that has 
tripled in the past 10 years.
    To support these industries, we need to do more. At the state level 
in Maine, we have a Maine Working Waterfront Access Protection Program, 
and although this program is wonderful, it's not enough.
    For example, there are 22 working waterfront projects in Maine 
funded by the program and there are new applications coming due to the 
demand.
    The Federal Government should be supporting this work with the same 
dedication that we have at the state level in some states--not 
duplicating efforts but maximizing dollars, bringing in more resources 
and making sure that the goals and plans that communities create can be 
brought to life.
    The grant program created by this bill is voluntary and it allows 
states to decide if they want to participate in it. The working 
waterfront plans allow each state, rather than Congress or the Federal 
Government to say what kinds of working waterfronts are most important 
to that state.
    The Federal Government should support states in these efforts and 
encourage states to consider the importance of supporting working 
waterfront infrastructure while recognizing that each state has 
different needs.
    Seeing these needs, I have worked with my colleagues in the past 
Congresses and have been proud to work with Congressman Wittman of 
Virginia, to raise this issue and make sure that we call attention to 
Working Waterfronts with some concrete steps.
    The bipartisan bill before us today would establish a working 
waterfront grants program and, it would create a Working Waterfront 
Task Force that would identify crucial needs and bring various Federal 
agencies to the table on this issue.
    I know that NOAA already does great work in this area and also that 
they have the authority under the CZMA to address this effort. What our 
bill would do, is make sure we dedicate resources for this specific 
work.
    Beyond this bill, there is more to be done and I have been working 
on another piece of legislation that is still in discussion draft 
stages to address if we can additionally support coastal communities 
through changes to the Magnuson Stevens Act.
    We need to look at various ways to help coastal areas and that is 
why I am so grateful for this hearing today. I would welcome an 
opportunity for the Subcommittee to move the bill if possible.
    In closing, I would like to read a quote from one of my 
constituents about the need for this work. This statement is from a 
fisherman from Friendship Maine, a community of about 1,100, ``As a 
lobsterman working on the regional ocean planning process, I've always 
said that fishermen need two basic things: a healthy stock to fish on, 
and the ability to access that resource. That access begins in the 
harbor at the shoreline. Without places to work on, store, load and 
unload their catch, gear and boats, fishing, as we know it in Maine, 
will cease to exist.''
    Again, thank you for the opportunity to testify today and I look 
forward to the next panel.

                                 ______
                                 

    Mr. Lamborn. Thank you for your testimony, Representative. 
You are welcome to join us for the remainder of the hearing, 
but if you need to meet other obligations you are excused, and 
we will understand.
    Mr. Young. Mr. Chairman?
    Mr. Lamborn. Now I would like to recognize Mr. Young.
    Mr. Young. Mr. Chairman, I would like, before the 
Congresslady leaves, the ethics rules allow us to distribute 
product that is collected or manufactured within a state.
    [Laughter.]
    Mr. Young. And if I am right, there are 18 members on this 
Committee. And I do know you have--because I want to thank you 
for your hospitality--one of the finest lobster packing plants 
up there, and there is no better way to sell a program than to 
see the real product broiled, or boiled, or steamed, along with 
butter. So, it is just a suggestion, that is all I am saying.
    Ms. Pingree. Can I just say that I am always happy to take 
advice from a more senior and more experienced Member. And if 
it would help the Committee to see favorably----
    [Laughter.]
    Ms. Pingree [continuing]. I know they would remain 
impartial. But just in the gesture of friendship, I will do my 
best to fulfill that promise.
    Mr. Young. Thank you.
    Mr. Lamborn. Now I would like to recognize Mr. Young for 5 
minutes to testify on his bill, if he would care to.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. I don't have any 
lobsters. But I do have crab. Thank you for taking up this 
bill. I was an original co-sponsor on this bill, and was 
Chairman of the Committee at that time, with Jim Saxton in 
1998. My current legislation would reauthorize the Act through 
2022 and allow NOAA to conduct and contract hydrographic 
surveys around the United States, with special specifics for 
the Arctic.
    As you know, Alaska is the Arctic. And that makes the 
United States an Arctic Nation. And we sorely need mapping for 
the future traffic that goes around, over the Northwest 
Passage, and we need this badly.
    Of course, we know that we have in Alaska 550,000 square 
nautical miles in the Arctic itself--this is the EEZ zone--and 
would take decades to survey that space. We would like to get 
it done a lot sooner, so we won't have any big accidents.
    Waters, again--to give you an idea, the mouth of the Yukon 
River, the last time it was surveyed was 1899. This is one of 
the major transportation corridors that go into the interior. 
Port Clarence is currently being surveyed to update the area, 
because it is a new shipping port which will happen. And I need 
it to happen.
    But we have, all around the United States, areas that we 
don't know for sure what is there, and mapping is badly needed. 
To give you an example, Houston, for instance, has some sunk 
ships, and they say in the approximate area. Imagine what would 
happen if you ran into one of those sunk ships with a big 
tanker.
    So, we have this need for this bill. It is really a 
reauthorization. I urge the passage of it, and I think it 
should be done. I am proud of the bill itself and the work that 
NOAA does, but they are so far behind, we wanted them to have 
the ability to do a contract whenever necessary to get this job 
done.
    With that, I yield back and urge the passage of the bill.

    [The prepared statement of Mr. Young follows:]
Prepared Statement of the Hon. Don Young, a Representative in Congress 
                  from the State of Alaska on H.R. 221
    Thank you Chairman Lamborn and Ranking Member Huffman for 
considering my bill, H.R. 221 the Hydrographic Services Improvements 
Amendments Act.
    I was an original co-sponsor and Chairman of this Committee when 
Rep. Jim Saxton (R-NJ) introduced the Hydrographic Services 
Improvements Act in 1998. My current legislation will reauthorize the 
Act through 2022 and will allow NOAA to conduct and contract for 
hydrographic surveys around the United States with a specific focus on 
the Arctic.
    Alaska is what makes the United States an Arctic nation. My state 
has more coastline than any other state in this country, and we don't 
know what's under the surface. We are seeing a significant increase in 
vessel traffic, exploration, and resource development in our Arctic 
waters. While hydrographic surveys are a critical part of maritime 
safety, economic, and environmental efforts nationwide, they are 
especially important in the Arctic.
    There are over 550,000 square nautical miles in the U.S. Arctic 
Exclusive Economic Zone (EEZ), and it would take decades to survey even 
half of that space. NOAA has designed 38,000 miles as survey priority 
areas, and estimates range up to 25 years to survey just those priority 
areas if resources remain at their current level.
    Alaskan waters are incredibly under surveyed. Before this year, the 
last time the entrances and mouth to the Yukon River were surveyed was 
1899. This river is the most effective route to deliver food and goods 
to coastal and inland villages in western Alaska, and the last on-the-
ground surveys were completed the same year that gold was discovered in 
Nome.
    Another region, Port Clarence, is currently being surveyed to 
update areas that have been avoided by shipping traffic because they 
don't know how deep the water is. This Port has been identified as a 
major development priority for Alaska and the Arctic, but there are 
still areas that ships avoid because we don't have accurate depth 
measurements.
    Outside of Alaska, we have areas like Puget Sound in Washington 
that desperately needs updated survey data for the deep draft vessel 
traffic transiting to Seattle and Tacoma.
    Around Houston, Texas, there are old shipwrecks and obstructions 
with their positions labeled as ``approximate'' on navigation charts. 
This is a real hazard to the oil tankers that travel to and from Port 
Houston.
    Authorization for the Hydrographic Services Improvement Act expired 
in 2012. My bill would reauthorize the program through 2022, and 
authorizes the use of appropriated funds to collect data and conduct 
surveys in the Arctic. I thank the Committee for considering this 
legislation.

                                 ______
                                 

    Mr. Lamborn. Thank you. I would also like to ask unanimous 
consent that the gentlewoman from Maine, Ms. Pingree, be 
allowed to join us at the dais and participate for the 
remainder of the hearing.
    Seeing no objection, so ordered.
    I would now like to call forward our second panel of 
witnesses. As they come forward, I will introduce them.
    Our first witness is the Honorable Paul LePage, Governor of 
the State of Maine; our second witness is the Honorable Kasey 
Velasquez, Vice Chairman of the White Mountain Apache Tribe 
from Whiteriver, Arizona; our third witness is Dr. Russell 
Callender, Assistant Administrator for Ocean Service and 
Coastal Zone Management for the National Oceanic and 
Atmospheric Administration, from Washington, DC; our fourth 
witness is Mr. Robert Snyder, President of the Island Institute 
from Rockland, Maine; and our final witness is Dr. David 
Millar, Government Accounts Director for the Americas for Fugro 
from Frederick, Maryland.
    Thank you all for taking the time to be here. Each witness' 
written testimony will appear in full in the hearing record, so 
I ask that witnesses keep their oral statements to 5 minutes, 
as outlined in our invitation letter to you, and under 
Committee Rule 4(a).
    I would also like to explain how our timing lights work. 
When you are recognized, press the talk button to activate your 
microphone. Once you begin your testimony, the Clerk will start 
the timer and a green light will appear. After 4 minutes, a 
yellow light will appear, and at that time you should begin to 
conclude your statement. At 5 minutes, the red light will come 
on. You may complete your sentence, but I would ask that you 
stop at that point.
    Governor LePage, thank you for being here. You are now 
recognized for 5 minutes.

 STATEMENT OF THE HON. PAUL LePAGE, GOVERNOR, STATE OF MAINE, 
                         AUGUSTA, MAINE

    Governor LePage. Thank you, Chairman Lamborn, Ranking 
Member Huffman, and members of the Subcommittee. Thank you for 
the opportunity to speak today regarding H.R. 1176, the Keep 
America's Waterfronts Working Act.
    Keeping waterfronts working is of utmost importance to the 
coastal economy in Maine. Access to water frontage for 
commercial fishing, agriculture, and other water-dependent 
businesses is imperative if we are going to sustain and grow 
jobs, particularly in the more rural areas of our state.
    Maine voters have overwhelmingly demonstrated their support 
for marine economy again and again in recent years, including a 
2005 referendum that authorized a constitutional amendment 
allowing current use valuation for land used for commercial 
fishing activities.
    Voters have also supported bond initiatives over the last 
12 years, and supported the Maine Working Waterfront Access 
Protection Program, which has protected 25 properties for 
commercial fishing access, totaling over 2.5 miles of coastline 
and benefiting over 1,100 fishermen.
    Maine's coastline is over 5,300 miles, including the 
islands and the peninsulas. And this week, I will tell you, 
with the recent storm, we know it. There is no power in most of 
the state.
    But only 175 miles of the coast has sufficient water depth 
and protection from weather to sustain business uses. Business 
use is further limited by the fact that only 20 of these miles 
have accessible low and high tide access at all times.
    As development pressures increase in busy harbors, such as 
the city of Portland, and wealthy summer visitors buy up ocean 
frontage in mid-coast and down east Maine, high property tax 
burdens are making it more and more difficult for fishing 
families to hold on to waterfront properties that have been in 
these families for generations.
    Like many states, most of the waterfront businesses in 
Maine are small businesses, family owned and run businesses, 
and they face ever-increasing regulatory burden of compliance 
from Federal agencies. This bill would add to that burden.
    The mechanism laid out in the bill are simply not the way 
to achieve the goal of keeping our waterfronts working. 
Reducing taxes, improving the science that underlies fisheries 
management, eliminating a burdensome and unnecessary regulation 
on small business and fair trade policies are far more 
important. However, they are not addressed in this bill.
    First, any work truly intended to ensure ongoing access for 
commercial enterprise should be led by the Department of 
Commerce, rather than the Department of the Interior. The 
National Oceanic and Atmospheric Administration has 
responsibility for fisheries and coastal management. The 
Coastal Zone Management Act appropriately balances states' 
rights and the interest of industry with appropriate 
conservation marine resources. Adding another layer of Federal 
bureaucracy on the states and private enterprise is unnecessary 
and inappropriate, especially since additional resources could 
already be provided through existing programs without new laws, 
planning, or oversight from the Department of the Interior.
    In fact, Maine recently moved our coastal program from the 
Department of Agriculture Conservation Forestry to the 
Department of Marine Resources to better align the needs of the 
coastal industries with the resources and expertise already 
available under our existing Federal, state, and local 
partnerships.
    The Coastal Zone Management Act now allows the state to 
prioritize working waterfront within the coastal management 
plan, as Maine has done. There is no reason why the Secretary 
of the Interior should have a role in this program. The 
Department of Commerce and the state of Maine are already 
authorized to do so. The proposed grant program in the bill 
would fund the improvements, acquisition of land, or interest 
in land for working waterfront protection, which may be held by 
a private citizen, organization, or municipality.
    However, the burden falls squarely on the shoulders of the 
state to ensure that the funding is appropriately applied at 
the time the award is made. Furthermore, the state would be 
obligated to ensure the property continues to allow public 
access to monitor the covenants on the property apparently into 
perpetuity. If a violation of a covenant occurs decades from 
now, the state would be obligated to manage this.
    As governor, I have witnessed far too many cases of the 
Federal Government's inability to quickly address problems 
facing citizens across Maine. The government delay in 
addressing erosion around the Saco River has caused devastation 
for homeowners in the area. The delay in coming to an agreement 
with the European Union on the trade deal has significantly 
hurt Maine's lobster industry by placing them in a serious 
disadvantage with Canada.

    [The prepared statement of Governor LePage follows:]
Prepared Statement of Hon. Paul R. LePage, Governor, State of Maine on 
                               H.R. 1176
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, thank you for the opportunity to speak today regarding 
H.R. 1176, the ``Keep America's Waterfronts Working Act.'' Keeping 
waterfronts working is of the utmost importance to the coastal economy 
in Maine. Access to waterfrontage for commercial fishing, aquaculture 
and other water-dependent businesses is imperative if we are going to 
sustain and grow jobs, particularly in the more rural coastal counties 
of Maine. Maine voters have overwhelmingly demonstrated their support 
for the marine economy again and again in recent years, including a 
2005 referendum that authorized a constitutional amendment allowing 
current use valuation for land used for commercial fishing activities. 
Voters have also supported four bond initiatives over the last 12 years 
that supported the Maine Working Waterfront Access Protection Program, 
which has protected 25 properties for commercial fishing access, 
totaling over 2\1/2\ miles of coastline and benefiting over 1,100 
fishermen.
    Maine's coastline is over 5,300 miles long when you include all the 
islands and long peninsulas. But only 175 miles of the coast have 
sufficient water depth and protection from weather to sustain business 
uses. Business use is further limited by the fact that only 20 of those 
miles are accessible at all tides. As development pressures increase in 
busy harbors, such as the city of Portland, and wealthy summer visitors 
buy up ocean frontage in Mid-coast and Down-east Maine, high property 
tax burdens are making it more and more difficult for fishing families 
to hold on to waterfront property that have been in their families for 
generations. Like many states, most of our waterfront businesses in 
Maine are small businesses, family owned and run, and they face an 
ever-increasing regulatory burden of compliance from Federal agencies. 
This bill would add to that burden. The mechanisms laid out in this 
bill are simply not the way to achieve the goal of keeping our 
waterfronts working. Reducing taxes, improving the science that 
underlies fisheries management, elimination of burdensome and 
unnecessary regulations on small businesses and fair trade policies are 
much more important. However, they are not addressed in this bill.
    First, any work truly intended to ensure ongoing access for 
commercial enterprises should be led by the Department of Commerce, 
rather than the Department of the Interior. The Department of 
Commerce's National Oceanic and Atmospheric Administration has 
responsibility for fisheries and coastal management. The Coastal Zone 
Management Act appropriately balances states' rights and the interests 
of industry with appropriate conservation of marine resources. Adding 
another layer of Federal bureaucracy onto the states and private 
enterprise is unnecessary and inappropriate, especially since 
additional resources could already be provided through existing 
programs without new laws, planning or oversight from the Department of 
the Interior. In fact, Maine recently moved our coastal program from 
the Department of Agriculture, Conservation and Forestry to the 
Department of Marine Resources to better align the needs of our coastal 
industries and communities with the resources and expertise already 
available under our existing Federal-state-local partnership. The 
Coastal Zone Management Act now allows states to prioritize working 
waterfront within their coastal management plans, as Maine has done. 
There is no reason why the Secretary of the Interior should have a role 
in that, since the Department of Commerce and the state of Maine are 
already authorized to do so.
    The proposed grant program in the bill would fund the improvements, 
acquisition of land, or interests in land, for working waterfront 
protection, which may be held by a private citizen, organization or 
municipality. However, the burden falls squarely on the shoulders of 
the state to ensure that the funding is appropriately applied at the 
time the award is made. Furthermore, the state would be obligated to 
ensure the property continues to allow public access and to monitor the 
covenants on the property apparently in perpetuity. If a violation of 
the covenant occurred a decade from now, the state would be obligated 
to take action. And all of this would have to be done with no more than 
5 percent administrative costs for a one-time award. I cannot, nor 
should any governor, in good conscience, accept one-time funds that 
will leave the state on the hook for administrative obligations and 
costs incurred well into the future.
    Finally, creation of a multi-agency task force at the Federal level 
may unnecessarily delay the opportunity to take meaningful actions to 
preserve waterfront infrastructure, and it may create the potential for 
agencies with tenuous connections to working waterfronts to exert even 
more control over private enterprise. Maine's working waterfront 
program focuses on implementation, rather than endless planning. 
According to a recent EDA report, there are already 80 Federal 
financing programs in place under which working waterfront properties 
would be eligible. How many of these existing programs are adequately 
funded to achieve their goals? Authorization of a new, targeted 
competitive grant program is meaningless without funding. As written, 
the program only serves to layer additional planning and reporting 
obligations onto the state with little hope of ever receiving limited 
Federal dollars.
    As governor, I have witnessed far too many cases of the Federal 
Government's inability to quickly address problems facing citizens 
across Maine. The government's delay in addressing erosion along the 
Saco River has caused devastation for homeowners in the area. The delay 
in coming to an agreement with the European Union on a trade deal is 
significantly hurting Maine's lobster industry by placing them at a 
serious disadvantage with Canada. President Obama's administration 
disregarded the will of Mainers and established a national monument in 
northern Maine at a time when Interior is strained with a $11.3 billion 
maintenance backlog. Without adequate funding for maintenance, I fear 
the monument will be more susceptible to a forest fire similar to the 
``Great Fire'' in Acadia National Park in 1947. These examples reflect 
how the Federal Government is unable to quickly address existing 
issues--it will only get worse if new programs are added.
    Instead of creating this new program, our small businesses, fishing 
families and lobster co-ops would benefit much more from regulatory 
reform that reduced their costs of doing business, tax reforms that 
reduced their financial burden and a trade policy that protects their 
interests by keeping the playing field level. There will be significant 
regional variability regarding the challenges working waterfronts and 
coastal communities face, so the Federal Government should leave the 
details to the states. Instead, the Federal Government should focus its 
efforts on streamlining environmental regulations to facilitate nimble 
business development in the face of changing environmental and economic 
conditions.

                                 ______
                                 

    Mr. Lamborn. Governor, thank you for being here and for 
your testimony.
    Governor LePage. You are very welcome.
    Mr. Lamborn. Now I would like to recognize Vice Chairman 
Velasquez for 5 minutes.

  STATEMENT OF THE HON. KASEY VELASQUEZ, VICE-CHAIRMAN, WHITE 
           MOUNTAIN APACHE TRIBE, WHITERIVER, ARIZONA

    Mr. Velasquez. Good morning, Chairman Lamborn, Ranking 
Member Huffman, and members of the Committee. [Speaking in 
native language]. My name is Kasey Velasquez, I am the Vice-
Chairman of the Tribal Council of the White Mountain Apache 
Tribe. I come to Washington, DC, with great respect for your 
work, and bring with me the prayers of our people.
    Honorable Chairman Lupe was, unfortunately, not able to 
attend this hearing. He sends his regrets. He asked me to 
testify in his place.
    Thank you for this opportunity to testify in support of 
Senate Bill 140, and thank you, Mr. Gosar, for your support in 
moving this vital legislation for the White Mountain Apache 
Tribe.
    Our people have lived in eastern Arizona since time 
immemorial. The headwaters of the White River arise on our 
reservation and merge with the Black River to become the Salt 
River, which flows south to the Phoenix Valley. Water flowing 
from our Apache homeland built the skyscrapers there. 
Ironically, despite hundreds of miles of streams on our land, 
our own economic development has been stifled by a lack of 
safe, clean, and reliable drinking water for our people, 
housing, schools, hospital, and reservation residents. The 
reason is Mother Nature.
    We have very little groundwater on our reservation, yet 
14,000 people, almost our entire population, are dependent upon 
a declining well field that was built approximately two decades 
ago. That decline is not reversible. Production is down to half 
of what it was in 1999. There is no recharge.
    There is also arsenic in our groundwater, natural arsenic 
in our groundwater. We have to blend it to meet EPA standards. 
Drinking water must be hauled by hand in one community and 
piped in another. New housing is needed to meet long-time and 
backlogged demand, but without reliable drinking water supply 
it cannot be built.
    Congress recognized in the White Mountain Apache Tribe 
Waters Act that our current and future drinking water needs 
could only be met by surface water. And then only by building a 
rural water system, including a dam and a small reservoir with 
6,000 acre-feet of active storage, a treatment plant, and a 55-
mile pipeline to deliver the treated water to our communities.
    Section 312 of the Water Rights authorizes up to $78.5 
million in the settlement fund for water-related economic 
development projects, among other listed purposes. Congress 
gave us broad discretion on how to use the $78.5 million. 
Importantly, the White Mountain Apache Tribe waived significant 
water right claims against the Federal Government, the state of 
Arizona, and other downstream water users in consideration for 
this funding.
    After the Water Rights Act became law, our engineer 
consultants discovered previously unknown potential seepage and 
the stability conditions in the foundation materials at the dam 
site. They advised that there will be a construction cost over-
run to build a dam and reservoir. We are certain, however, that 
any cost over-run will not exceed the total amount already 
authorized in the Water Rights Act for the rural water system, 
the settlement fund, and the cost over-runs.
    Moreover, the Congressional Budget Office has confirmed 
that S. 140 is budget neutral. We have always understood that 
the funding authorized by Congress for water-related economic 
development projects would naturally include using money from 
the settlement fund, if necessary, to pay for any cost over-run 
to complete the rural water system, a water-related economic 
development project in its own right.
    We, therefore, become concerned that the Department of the 
Interior advised that it was not absolutely clear, from its 
perspective, whether the settlement fund could be used to pay 
cost over-run to build the rural water system. Enactment of 
Senate Bill 140 will assure Interior that the settlement fund, 
as needed, could be used to complete the rural water system.
    As I testify before you today, I am mindful of an image and 
a hope that I have held for years, that I would be fortunate to 
live long enough to see a child in the community of Carrizo 
casually open a faucet on a kitchen sink to fill a glass with 
clean water, something they cannot do today.
    Thank you.

    [The prepared statement of Mr. Velasquez follows:]
  Prepared Statement of Kasey Velasquez, Tribal Vice Chairman of the 
White Mountain Apache Tribe, Fort Apache Indian Reservation, Arizona on 
                                 S. 140
    Chairman Lamborn, Ranking Member Huffman and members of the 
Committee: Thank you for the opportunity to testify in support of S. 
140--a Bill to amend the White Mountain Apache Tribe Water Rights 
Quantification Act of 2010 to clarify the use of amounts in the WMAT 
Settlement Fund.
    My name is Kasey Velasquez, and I am the Tribal Vice Chairman of 
the White Mountain Apache Tribe. We live on the Fort Apache Indian 
Reservation upon aboriginal lands which we have occupied since time 
immemorial. Our reservation is located about 200 miles northeast of 
Phoenix in the White Mountain Region of east central Arizona.
    The Tribe's current water sources and antiquated infrastructure 
have been and continue to be grossly inadequate to meet the current 
demands and needs of our reservation communities. Fortunately, in 2009 
we agreed to a quantification of our aboriginal and federally reserved 
water rights with various state parties following decades of 
litigation, and Congress then enacted the White Mountain Apache Tribe 
Water Rights Quantification Act \1\ (``Quantification Act'') (P.L. 111-
291). The cornerstone of that Act, which confirmed the 2009 Water 
Rights Quantification Agreement and Settlement, is the authorization 
for the design and construction of the White Mountain Apache Tribe 
Rural Water System (the ``Rural Water System'') (P.L. 111-291), which 
will bring desperately needed safe and reliable drinking water to our 
tribe and its members.
---------------------------------------------------------------------------
    \1\ The White Mountain Apache Tribe Water Rights Quantification Act 
became Title III of the Claims Resolution Act of 2010 (the ``Act''). 
P.L. 111-291.
---------------------------------------------------------------------------
    S. 140 is needed to clarify the intent of a provision in the Act 
concerning the Rural Water System and will enable us to shift some 
amounts of already authorized spending among authorized activities. 
Specifically, the legislation would clarify Congress' intent to allow 
the Tribe to use the existing authority under Section 312(b)(2) of the 
Act for ``water-related economic development'' projects to complete the 
construction of the Rural Water System.
    If this issue is not resolved, the completion of the Rural Water 
System project will be threatened, thereby increasing the ultimate cost 
to the United States and delaying the delivery of life-sustaining 
drinking water to our reservation communities.
  fort apache indian reservation and the tribe's reserved water rights
    The Tribe holds full beneficial title to 1.66 million acres of 
trust land in the east central highlands of the state of Arizona. The 
Tribe's Fort Apache Indian Reservation was established by Executive 
Order in 1871. We have retained actual, exclusive, use, and occupancy 
of our aboriginal lands within the boundaries we agreed to, and the 
boundaries were later designated by the Executive Orders dated November 
9, 1871, and December 14, 1872, without exception, reservation, or 
limitation since time immemorial. The Tribe's vested property rights, 
including its aboriginal and other Federal reserved rights to the use 
of water, often referred to as Winters Doctrine Water Rights, that 
underlie, border, and traverse our lands, have never been extinguished 
by the United States and are prior and paramount to all rights to the 
use of water in the Gila River drainage, of which the Salt River is a 
major source.
    Except for a small portion of the reservation that drains to the 
Little Colorado River Basin, virtually our entire reservation drains to 
the Salt River. The headwaters and tributaries of the Salt River arise 
on our reservation and are the principal sources of water for the Tribe 
and the greater metropolitan Phoenix area. Specifically, 78 percent of 
the water in Theodore Roosevelt Reservoir located north of the Phoenix 
Valley is contributed from our reservation; at Saguaro Lake Reservoir, 
further south, 60 percent of the water is contributed from our 
reservation; and below the confluence of the Verde River and Salt 
River, near Granite Reef Dam, Scottsdale, 42 percent of the water comes 
from our reservation. The importance of achieving implementation of our 
2009 Water Rights Quantification Agreement is essential to the well-
being of the White Mountain Apache Tribe and the downstream water users 
in the Phoenix Valley.
  white mountain apache tribe water rights quantification act of 2010
    In 2010, Congress approved the historic White Mountain Apache Tribe 
Water Rights Quantification Act as part of the Claims Resolution Act of 
2010 (P.L. 111-291). The legislation was sponsored in by Senator 
McCain, now-retired Senator Jon Kyl, and the entire Arizona delegation 
in the House. Importantly, the Act was budget neutral.
    The Quantification Act resolved the Tribe's water related damage 
and reserved water rights claims against the United States, the state 
of Arizona, and a number of state parties in regards to rights in the 
Little Colorado River and the Gila River (Salt River and Tributaries 
thereto). In consideration for the Tribe waiving its water related 
claims and prior reserved rights, the Act authorized funding for the 
construction of the Rural Water System--comprised of a dam and 
reservoir, treatment plant, and a 55 miles of pipeline to serve 
virtually every reservation community. In addition, the Act also 
authorized funding for, among other things: (1) cost-overruns for the 
Rural Water System (Sec. 312(e)) and (2) ``water-related economic 
development projects'' as part of the WMAT Settlement Fund (Sec. 
312(b)).
    The White Mountain Apache Tribe Water Rights Quantification 
Agreement, which was respectfully negotiated amongst all parties, was 
formally approved by the White Mountain Apache Tribe and all parties, 
including the Secretary of the Interior, and subsequently approved by 
the Superior Courts (Apache County and Maricopa County Superior Court) 
of the state of Arizona on December 18, 2014. The White Mountain Apache 
Tribe Water Rights Quantification Settlement Judgment and Decree was 
filed in Maricopa County and Apache County on March 15, 2015. The 
Judgments and Decrees become enforceable on the date that the White 
Mountain Apache Tribe Water Rights Quantification Act becomes 
enforceable with the publication by the Secretary of the Record of 
Decision allowing the construction of the Rural Water System project to 
go forward.
                   the tribe's drinking water crisis
    The driving force behind the 2009 water rights settlement and the 
2010 Quantification Act was the long-standing need to provide a 
reliable and safe water supply and delivery system to the members of 
the White Mountain Apache Tribe. The Tribe and Reservation residents 
are in urgent need of a long-term solution for their drinking water 
needs. Currently, the Tribe is served by the Miner Flat Well Field. 
Well production has fallen sharply and is in irreversible decline. Over 
the last decade, well production has fallen by 50 percent. A small 
diversion project on the North Fork of the White River was constructed 
several years ago to compensate for the precipitous loss of well 
production, but this was only a temporary fix and drinking water 
shortages remain a chronic problem. The Tribe experiences annual summer 
drinking water shortages, and there is no prospect for groundwater 
recovery as there is little or no groundwater on the reservation. The 
quality of the existing water sources threatens the health of our 
membership and other reservation residents, including the Indian Health 
Service Regional Hospital and State and Bureau of Indian Affairs 
schools. The only viable solution is the replacement of failing 
groundwater resources with surface water from the North Fork of the 
White River.
    Without reservoir storage behind Miner Flat Dam, a feature 
authorized by the Act, the stream flows of the North Fork of the White 
River, supplemented by short-term capacity of the Miner Flat Well 
Field, are together inadequate to meet current, much less future, 
community demands of the White Mountain Apache Tribe in the Greater 
Whiteriver Area, Cedar Creek, Carrizo, and Cibecue and to maintain a 
minimum flow in the North Fork of the White River. The demands of the 
Tribe for its Rural Water System will literally dry up the North Fork 
of the White River before 2020, even in combination with a supplemental 
supply from the Miner Flat Well Field. Therefore, Miner Flat Dam is 
necessary to store 6,000 acre feet of water during runoff periods for 
release and enhancement of the North Fork of the White River to not 
only meet demands of the Reservation Rural Water System, but to 
maintain a minimum flow required for aquatic and riparian habitat 
preservation and enhancement.
    In sum, the Rural Water System will replace the failing and 
terminal groundwater well system and enable the Tribe to construct a 
secure, safe, and reliable drinking water supply for the current 15,000 
White Mountain Apache Tribal members and residents living on our 
reservation and to meet the increasing drinking water needs of the 
reservation for a future population of nearly 40,000 persons in the 
decades to come.
                    need for technical clarification
    After passage of the Act, the Tribe used a prior loan from 
Reclamation to continue work on the design and geotechnical plan for 
the proposed dam site of the Rural Water System. In the course of this 
work, the Tribe's consulting engineers discovered potential seepage and 
stability conditions in the foundation material at the dam site than 
had not been previously known. The cost-overrun funding necessary to 
address these design and construction issues will in no event be 
greater than the total amounts authorized in Sections 312(a), (b), and 
(e), of the Act which respectively authorized the Rural Water System, 
the WMAT Settlement Fund, and cost-overruns for the System.
    The WMAT Settlement Fund authorized in Section 312(b)(2) of the 
legislation was written sufficiently broad to authorize the use of the 
fund for cost-overruns. Consistent with the goals of self-determination 
and self-sufficiency, Congress intended the Tribe to have wide 
discretion on how to use and prioritize any of the authorized uses in 
Section 312(b)(2)(C), which, as noted, includes the very broad category 
of ``water-related economic development projects.'' This intent--that 
we would have wide discretion on the use of these funds--has always 
been our understanding, and we have relied on that belief. Since the 
Rural Water System will serve a number of water-related activities from 
housing to hydropower, it fits squarely within the Settlement Fund's 
authorized purposes. For example, the System will provide: (1) water 
for new and existing housing on the reservation and other municipal 
needs; (2) water for existing irrigation; (3) the ability to expand 
irrigation (approximately 2,000 acres); (4) improvements to the 
Alchesay fish hatchery; (5) lake-based recreation for fishing and non-
motorized boats; and (6) the potential for small-scale hydro-electric 
(approximately 2 megawatts). Given the importance of the Rural Water 
System and its economic development purposes, the Tribe is willing to 
use this existing authorization to complete the Rural Water System in 
lieu of other development alternatives listed in Section 312(b).
    Recognizing that the Rural Water System was the cornerstone of the 
Act and the consideration for the settlement of the Tribe's water 
rights, Congress provided sufficient flexibility in its funding 
authorization to ensure that funding for the Rural Water System could 
be accessed from various authorizations, including Sections 312(a), 
(b), and (e). The Secretary is only authorized to require changes to 
the design of the Rural Water System if it cannot be constructed ``for 
the amounts made available under Section 312.'' Sec. 307(c)(2)(B)(iii). 
Section 307 does not limit how funds within Section 312 can be used, 
nor was it intended to.
    Notwithstanding the language of the Act, the Department of the 
Interior has indicated that it is not absolutely clear (from its 
perspective) whether the Settlement Fund can be used for the System's 
cost-overruns. Consequently, a technical amendment is necessary to 
clarify that authorization authority exists in Section 312(b) for any 
necessary cost-overruns associated with the WMAT Rural Water System.
    The importance of our water rights settlement and the WMAT Rural 
Water System to the health and welfare of our people cannot be 
overstated. We must ensure its timely design and completion by 
resolving the cost issue within the Act's existing authorization now, 
not later. This legislation would clarify that we have the necessary 
authorization to complete the project. If it is not resolved, the 
completion of the project will be threatened, thereby increasing the 
ultimate cost to the United States and delaying the delivery of life-
sustaining drinking water to our reservation communities.

                                 ______
                                 

    Mr. Lamborn. Thank you for your testimony and for coming 
all the way to be here today.
    Dr. Callender, you are now recognized for 5 minutes.

  STATEMENT OF RUSSELL CALLENDER, ASSISTANT ADMINISTRATOR FOR 
       OCEAN SERVICES, NATIONAL OCEANIC AND ATMOSPHERIC 
                 ADMINISTRATION, WASHINGTON, DC

    Dr. Callender. Good morning, Chairman Lamborn, Ranking 
Member Huffman, and members of the Subcommittee. My name is 
Russell Callender. I am the Assistant Administrator for Ocean 
Services and Coastal Zone Management at the National Oceanic 
and Atmospheric Administration, or NOAA. In this capacity, I 
serve as the Director of NOAA's National Ocean Service.
    Thank you for the opportunity to testify today on 
legislation that would amend authorities for National Ocean 
Service programs. H.R. 221 would amend the Hydrographic 
Services Improvement Act, and H.R. 1176, the Keep America's 
Waterfronts Working Act, would amend the Coastal Zone 
Management Act.
    NOAA's hydrographic services date back to 1807, when the 
survey of the coast was established by President Thomas 
Jefferson. Today, these programs continue to support safe and 
efficient commerce by providing mariners with information they 
need to navigate the Nation's busy ports and waterways. While 
these programs have historic roots, today they employ cutting-
edge science and technologies to provide more accurate and 
timely information that meets the requirements of a modern 
maritime nation.
    The Hydrographic Services Improvement Act, or HSIA, 
provides explicit authority for NOAA to provide services in 
response to emergencies and disasters. The efforts of the men 
and women working in these programs in response to this year's 
storms was nothing less than stellar and often heroic.
    We embedded NOAA navigation and spill response experts with 
the U.S. Coast Guard before each storm. We acquired aerial 
imagery for FEMA that was used to support first responders and 
the distribution of resources. We conducted hydrographic 
surveys from Texas to Puerto Rico, which informed the Coast 
Guard's decision to reopen multiple ports.
    NOAA supports HSIA reauthorization, and appreciates the 
support of Congress for these missions and programs. The 
legislation includes specific funding levels for various 
programs. NOAA looks forward to working with the Subcommittee 
to ensure that the funding levels are consistent with the 
President's fiscal 2018 budget.
    The Arctic is in particular need of modern hydrographic 
services. Longer ice-free seasons are resulting in increased 
vessel activity. NOAA is working to increase its Arctic 
presence, while balancing the needs of other U.S. ports and 
waterways. While NOAA has full authority to provide services 
across the entire country, including Alaska, we have no 
objection to the language authorizing activities in the Arctic.
    NOAA is always working to improve program efficiency. We 
are taking steps to contain administrative costs associated 
with contract hydrographic surveys. We also know that the 
acquisition of new survey data is only part of the task. Raw 
data must be processed, quality assured, and ultimately be 
provided to mariners in the form of updated charts.
    We look forward to working with the Subcommittee to fully 
understand the intent and effective language to limit 
administrative expenses for hydrographic surveys.
    Section 3 of the legislation would direct the Government 
Accountability Office, or GAO, to conduct a cost comparison 
study. Congress requested this study in February 2016, and GAO 
completed it this past June 2017. NOAA is responding to GAO's 
recommendations. Therefore, NOAA recommends this section of the 
legislation be deleted. NOAA would welcome the opportunity to 
brief the Subcommittee on this study and our efforts to 
implement its recommendations.
    H.R. 1176, Keep America's Waterfronts Working Act, would 
amend the Coastal Zone Management Act, or CZMA, which has 
served as a cornerstone for national coastal policy for 45 
years. Under the CZMA, coastal states have discretion to use 
funding to address the needs of working waterfronts, and many 
states are doing so.
    Although H.R. 1176 would give NOAA the authority to 
administer grants subject to appropriations, it would grant the 
Secretary of the Interior the authority to establish a Working 
Waterfront Task Force. NOAA recommends that the Secretary of 
Commerce be granted this authority. We look forward to working 
with the Subcommittee on H.R. 1176.
    Thank you for the opportunity to testify today. I 
appreciate the Subcommittee's time and attention to these 
important issues, and look forward to the dialogue and 
answering questions. Thank you.

    [The prepared statement of Dr. Callender follows:]
     Prepared Statement of W. Russell Callender, Ph.D., Assistant 
Administrator for Ocean Services and Coastal Zone Management, National 
Oceanic and Atmospheric Administration, U.S. Department of Commerce on 
                         H.R. 221 and H.R. 1176
                              introduction
    Good morning Chairman Lamborn, Ranking Member Huffman, and members 
of the Subcommittee. My name is Russell Callender, and I am the 
Assistant Administrator for Ocean Services and Coastal Zone Management 
at the National Oceanic and Atmospheric Administration (NOAA), within 
the Department of Commerce. Thank you for the opportunity to testify 
today on two pieces of legislation pending before the Committee.
    NOAA is an agency that enriches life through science and science-
based services. From daily weather forecasts and severe storm warnings, 
to fisheries management, coastal restoration and supporting maritime 
commerce, NOAA supports economic vitality and affects more than one-
third of America's gross domestic product. NOAA applies cutting-edge 
research, high-tech instrumentation and extensive network of 
partnerships to provide citizens, planners, emergency managers and 
other decision makers with the reliable information they need when they 
need it.
    NOAA's roots date back to 1807, when the Nation's first scientific 
agency--the Survey of the Coast--was established by President Thomas 
Jefferson. Since then, NOAA has evolved to meet the changing needs the 
country and economy. NOAA maintains a presence in every state and has 
emerged as a leader in providing a broad range of science and useful 
services to inform and improve decision making.
     h.r. 221--the hydrographic services improvement amendments act
    H.R. 221 would amend the Hydrographic Services Improvement Act 
(HSIA) of 1998 in four ways: (1) authorizing HSIA activities through 
Fiscal Year 2022; (2) specifically authorizing hydrographic data 
collection in the U.S. Arctic for navigation safety and extended 
Continental Shelf (ECS) delineation; (3) limiting administrative 
expenses for hydrographic surveys; and (4) mandating a Government 
Accountability Office (GAO) study comparing the unit costs of 
hydrographic surveys conducted by NOAA and the unit costs of contract 
hydrographic surveys. My statement will address each of these issues in 
order.
    H.R. 221 proposes to reauthorize the HSIA through FY 2022. NOAA 
supports HSIA reauthorization. We encourage the Committee to authorize 
funding levels consistent with the President's FY 2018 budget request 
for NOAA in core coastal navigation and observing (e.g. surveys and 
charts). This includes $27 million for hydrographic surveys, $35.8 
million for geodetic functions and $32 million for tide and current 
measurement functions.
    H.R. 221 does not geographically define the U.S. Arctic, but in 
general and for the purposes of this testimony, NOAA uses the 
definition provided in the Arctic Research and Policy Act of 1984.\1\
---------------------------------------------------------------------------
    \1\ The Arctic Research and Policy Act of 1984 defines `Arctic' as 
``all United States and foreign territory north of the Arctic Circle 
and all United States territory north and west of the boundary formed 
by the Porcupine, Yukon, and Kuskokwim Rivers; all contiguous seas, 
including the Arctic Ocean and the Beaufort, Bering and Chukchi Seas; 
and the Aleutian chain.''
---------------------------------------------------------------------------
    NOAA recognizes the Arctic as a region in particular need of modern 
hydrographic services as a result of increased maritime activity 
involving energy, fishing and tourism. Our Arctic Vision and Strategy, 
as well as our Arctic Nautical Charting Plan and the U.S. Coast Guard's 
Arctic Strategy recognize the value of improved hydrographic services 
to ensure safe, secure, and environmentally responsible Arctic maritime 
activity and stewardship. NOAA already has full authority to provide 
these services to Alaska and the U.S. Arctic and support Congress 
highlighting this region as an emerging need.
    Historically, remote Arctic waters have been relatively 
inaccessible with low levels of maritime commerce. As interest in 
Arctic economic uses grows, NOAA is working to increase its Arctic 
presence while balancing investments in the region against the needs in 
other U.S. navigationally significant areas that are also experiencing 
increased ship traffic. In recent years NOAA has invested in 
reconnaissance surveys by the NOAA Ship Fairweather up to and along the 
North Slope; NOAA and contract hydrographic surveys in the Bering 
Strait, Kotzebue, Kuskokwim, and the Krenitzin Islands regions; ECS 
surveys in partnership with the U.S. Coast Guard, U.S. Geological 
Survey, and Government of Canada; gravity data acquisition over 
northern Alaska for accurate positioning; and shoreline mapping of the 
north slope using the best available satellite data.
    In August 2016, NOAA issued an update to its U.S. Arctic Nautical 
Charting Plan, which identifies regions with inadequate chart coverage. 
This update was informed by consultations with Arctic maritime 
interests, the public, and other Federal, state, and local agencies, in 
order to keep pace with the rapidly changing Arctic environment and the 
associated increase in maritime commerce and oil and gas extraction 
activities. NOAA also continues to work with the State Department, U.S. 
Geological Survey, and other partners on ECS delineation. The data 
acquisition phase for this effort in the Arctic is essentially 
complete, and the focus has now shifted to analysis of the extent of 
the U.S. continental shelf under international law. The exploration and 
research conducted also helps to identify and evaluate potential new 
marine resources, and to identify and characterize marine ecosystems 
and habitats. NOAA is also developing water level measurement 
technology that can endure the harsh climate of remote Arctic areas.
    H.R. 221 includes a provision that would limit administrative 
expenses for hydrographic surveys to 5 percent. The bill does not 
specify to which funding this provision would apply, nor does it define 
administrative expenses. NOAA already does, and will continue to, limit 
the direct costs for administering contracts to 5 percent. But contract 
surveying also incurs other costs associated with data processing and 
charting, long-term archiving and delivery, infrastructure, and, most 
importantly, data quality assurance.
    Data quality assurance and control is an essential step in the data 
acquisition process to ensure that delivered hydrographic data meets 
the technical requirements of the contract or task order. This ensures 
that charts and other products are accurate for safe navigation, 
fishing, storm surge modeling and numerous other applications. The 5 
percent limitation proposed in the bill is insufficient to cover these 
other costs and could have a detrimental impact on NOAA's ability to 
manage hydrographic survey contracts and apply acquired data to the 
nautical chart in a timely fashion. It could result in replacing a 
backlog of surveying requirements with a backlog of data to chart and 
deliver to mariners. We look forward to working with the Committee to 
clarify the bill's provision on administrative expenses.
    Finally, the draft bill would authorize a GAO study to compare NOAA 
and contract survey costs. However, GAO already conducted a study on 
this, which began in February 2016 and was completed in June 2017. NOAA 
currently is responding to GAO's recommendations and has already 
delivered on several of them. NOAA would welcome the opportunity to 
brief the Committee on the study and our efforts to implement its 
recommendations.
           h.r. 1176--keep america's waterfronts working act
    H.R. 1176, Keep America's Waterfronts Working Act, would amend the 
Coastal Zone Management Act (CZMA), which has served as a cornerstone 
for national coastal policy for 45 years. NOAA recognizes the CZMA is a 
viable conduit to provide assistance to the Nation's working 
waterfronts.
    Although H.R. 1176 would give NOAA the authority to administer 
grants (subject to appropriations), it would grant the Secretary of the 
Interior the authority to establish a task force to ``identify and 
address critical needs with respect to working waterfronts.'' Given 
that the bill would amend the CZMA and directs NOAA to develop and 
administer the grants program, NOAA recommends that the Secretary of 
Commerce be granted the authority to establish the Working Waterfront 
Task Force and appoint its members under Section 320(b)(1) as added to 
the CZMA. NOAA also recommends that the definition of ``Secretary'' in 
Section 320(m)(2) be clarified as Secretary of Commerce, acting through 
NOAA. Finally, in Section 320(b)(2)(B) NOAA recommends that the 
reference to the Coastal Services Center be updated and be replaced 
with the ``Office for Coastal Management'' so that it reads 
``representatives from the National Oceanic and Atmospheric 
Administration's Office for Coastal Management, the United States Fish 
and Wildlife Service, the Department of Agriculture, the Environmental 
Protection Agency, the United States Geological Survey, the Navy, the 
National Marine Fisheries Service, and such other Federal agencies as 
the Secretary considers appropriate.''
    NOAA is aware of the numerous challenges facing working waterfront 
communities and provides support to address these challenges. Under the 
CZMA, coastal states have discretion to use funding to address the 
needs of working waterfronts, and many states are doing so. States use 
grants authorized under Section 306 of the Act to support local 
waterfront planning, as well as low-cost construction grants authorized 
under Section 306A to build boardwalks, boat ramps, and public fishing 
piers. Additionally, enhancement funds authorized under Section 309 
provide support for waterfront Special Area Management Plans, which 
share many of the goals of the working waterfront plans authorized 
under H.R. 1176.
    We share the Subcommittee's interest in assisting working 
waterfront communities in coastal areas, and we look forward to working 
with the Subcommittee on H.R. 1176.
                               conclusion
    Thank you again for the opportunity to provide this testimony on 
these two pieces of legislation pending before the Committee. I 
appreciate the Subcommittee's time and attention to these important 
issues and I look forward to working with you further.

                                 ______
                                 

    Mr. Lamborn. All right, and thank you.
    Mr. Snyder, you are now recognized for 5 minutes.

   STATEMENT OF ROBERT SNYDER, PRESIDENT, ISLAND INSTITUTE, 
                        ROCKLAND, MAINE

    Dr. Snyder. Good morning. Chairman Lamborn, Ranking Member 
Huffman, and members of the Committee, thank you for the 
opportunity to testify today on H.R. 1176. My name is Rob 
Snyder, and I am President of the Island Institute.
    The Island Institute is a community development 
organization based in Rockland, Maine that cares deeply about 
working waterfronts. We work to sustain island and coastal 
communities, and our highest priority is helping communities 
strengthen and diversify their economies.
    In fact, I have spent the last 15 years helping coastal 
businesses and communities overcome significant challenges and 
take advantage of opportunities to improve working waterfront 
infrastructure. It was actually kind of nice to hear Governor 
LePage reflect on the past 13 years of success of some of that 
programming, particularly the creation of the Working 
Waterfront Access pilot program in Maine.
    So, the first point, which has been iterated over and over 
again, is that working waterfronts are critical to our economy 
in Maine and around the country. As Representative Pingree 
noted, Maine is highly reliant on the lobster industry. In 
fact, just three of Maine's communities--Rockland, my hometown; 
Vinalhaven; and Stonington--land about $114 million worth of 
lobster--they did that in 2015--almost equal to the value of 
all the commercial fisheries in New Hampshire, Rhode Island, 
and Connecticut, combined.
    Every one of the 270,000 fishing trips Maine lobstermen 
take each year starts and ends at a working waterfront. And 
every pound of the $130 million of lobster that you guys want 
to taste, all of that, all of that crosses a working waterfront 
on its way to markets around the globe. Nationally, fishermen 
land about $5.2 billion worth of fish, which means that the 
lobster industry in Maine is responsible for about 10 percent 
of the total value of commercial landings in this country.
    The second point that I want you all to think about is that 
this infrastructure and the associated businesses face a 
variety of threats that emerge from beyond their local 
communities. This is why I view it as a public policy issue.
    First of all, access to markets matters. The ability to 
access domestic international markets plays an important role 
in the health of our coastal communities. Trade with Canada, 
Europe, and China, as well as the strength of the dollar, have 
all had a direct impact on the viability of our working 
waterfronts.
    The second aspect to this is that climate matters. An 
unseasonably warm summer in 2012 in the ocean caused lobsters 
to shed their shells 6 weeks early. The early shed led to an 
unanticipated increase in the landings before processors were 
ready to handle it. The price of the product tanked the 
industry, fishing businesses struggled to make loan payments, 
and our coastal communities lost about $50 million during that 
time, just in those few weeks.
    In addition to warming events, direct wave action from sea 
level rise and also from storm surge can easily cause 
significant damage to the docks, coolers, fuel tanks, and 
parking lots, as unglamorous as they may sound, which are 
critical to our working waterfronts. Despite these threats, 
fishermen need these places that provide a physical connection 
between the land and sea.
    My third point that I think you also all understand very 
well is that this issue has significant national constituency. 
This is not just an issue for Maine fishermen. There is a 
national constituency supporting small businesses that care 
about this infrastructure.
    Through years of experiencing connecting fishermen and 
community leaders from Alaska, California, Louisiana, Florida, 
North Carolina, Virginia, Maryland, and elsewhere, we find an 
incredible commitment to supporting local working waterfronts, 
and that commitment led to the creation of the national Working 
Waterfront Network, which includes representatives from all of 
our coastal states.
    Working waterfronts are an issue that are important to tens 
of thousands of people--actually, millions today--from 
longshoremen, tugboat captains and crew, able-bodied seamen, 
merchant marines, truck drivers, marine diesel mechanics, 
welders, fabricators, and others who work at boatyards and 
marinas, fishermen, clammers, aquaculture, seafood processors--
these are the people who rely on working waterfronts to help 
make a living. These are the people who will benefit from this 
program.
    In conclusion, I am just going to scale back a little bit 
and say, in the mid-1970s in this country we actually did 
something incredibly bold, which was to claim 200 miles of 
ocean around our entire perimeter for an exclusive economic 
zone. We did that with the express purpose of maximizing the 
economic benefit we would gain from our oceans that would 
benefit not only the Nation, but also our coastal communities. 
This working waterfront is an incredibly important part of 
ensuring that we can continue to maximize the economic benefit 
of that region for our Nation and for the places we care about.
    And this program provides an incredibly important catalyst 
that will take place everywhere where those grants are made. 
People will have new kinds of discussions about how the 
waterfront is evolving, and what their future is going to look 
like, and how they want to invest in it from across the public 
and private sector, and that is, I think, an incredible 
opportunity for all of us.

    [The prepared statement of Dr. Snyder follows:]
 Prepared Statement of Rob Snyder, President, Island Institute on H.R. 
                                  1176
    Chairman Lamborn, Ranking Member Huffman, members of the Committee, 
thank you for the opportunity to testify today. My name is Rob Snyder 
and I'm the President of the Island Institute, a community development 
organization based in Rockland, Maine. The Island Institute cares 
deeply about working waterfronts. As an organization, we work to 
sustain Maine's island and coastal communities and exchange ideas and 
experiences to further the sustainability of communities in Maine and 
elsewhere. I have spent the last 17 years helping coastal businesses 
and communities overcome significant challenges and take advantage of 
opportunities to improve their working waterfront infrastructure.
    Just three of Maine's communities--Rockland, Vinalhaven, and 
Stonington--landed about $114 million worth of lobster in 2015, almost 
equal to the value of all of the commercial fisheries in New Hampshire, 
Rhode Island, and Connecticut, combined. Everyone of the 270,000 
fishing trips Maine lobstermen take each year starts at a working 
waterfront and every pound of the 130 million pounds of lobster that 
fishermen land, crosses a working waterfront on its way to markets 
around the globe.
    In fact, the American lobster, is the single most valuable species 
landed in the entire United States and 80 percent of that catch comes 
from Maine. Last year, the lobsters landed by Maine lobstermen were 
valued at over $533 million. Nationally, fishermen landed $5.2 billion 
worth of fish--which means the lobster industry in Maine is responsible 
for about 10 percent of total value of commercial landings in the 
country.
    In Maine, our working waterfront infrastructure and the businesses 
that they rely on face a variety of threats from shifts in the economy, 
government policy and environment. For fish and aquaculture products, 
the ability to access markets, and especially international markets, 
plays an important role in the health of coastal communities. Trade 
with Canada, Europe, and China as well as the strength of the dollar, 
all have a direct bearing on the viability of businesses that need a 
working waterfront.
    Unseasonably warm waters in 2012 shifted the timing of the lobster 
shed and lobsters shed their shells 6 weeks early. The early shed led 
to a significant and unanticipated increase in landings before the 
processors were ready to handle the increased product flow. The price 
tanked, and fishing businesses struggled to make loan payments or pay 
their crews.
    Storm surge has the potential to structurally change the 
communities and economy of our coast. Direct wave action or elevated 
water levels in a protected cove can easily cause significant damage to 
the infrastructure that supports fishing. From floating docks to bait 
coolers and fuel tanks, there is a lot of important and expensive 
infrastructure along the coast, and constraints placed on financing 
properties in the flood zone exacerbate these issues. Fishermen need 
these places that provide a connection between land and ocean. They are 
the quintessential ``water-dependent, coastal related businesses.''
    While the Island Institute is based in Maine and cares deeply about 
communities in Maine, we know that communities across the country are 
working on ideas and innovations that might help Maine's communities. 
Through years of exchanging shared challenges, and solutions with 
fishermen and community leaders from Alaska, California, Louisiana, 
Florida, North Carolina, Virginia, Maryland, and elsewhere, we have 
found an incredible commitment to supporting local working waterfronts. 
Because of their importance to local economies, and in many cases to 
the local identity, working waterfront conversations attract a wide 
range of stakeholders.
    Even at the national level, the issues facing our Nation's working 
waterfronts attract a diverse group of stakeholders. The National 
Working Waterfront Network brings together a variety of stakeholders 
from every coastal state that includes businesses, industry 
associations, community leaders, government agencies, and others to 
help address shared challenges.
    One underlying theme from across the country is that our Nation's 
working waterfronts are only as strong as the businesses they support. 
If the underlying business is struggling, the working waterfront falls 
into disrepair. Even if a working waterfront hosts a strong business, 
its prime location on the water may make it highly desirable. 
Skyrocketing coastal property values, and increasing tax burdens can 
put pressure on the owners to turn the property into condos or another 
high value use.
    Estimates from 2009 suggest that ocean-based economic activity 
represents 3.4 percent of total U.S. GDP and 4.8 percent of total U.S. 
employment--in 2009, there were over 130,000 business paying almost 2.4 
million employees over $84 billion in wages and benefits. Much of this 
activity is associated with a working waterfront. I would suggest that 
congressional leaders are not paying enough attention to the specific 
needs of small, water-dependent coastal businesses and we should be 
asking questions about how we could be supporting and fostering 
innovation on working waterfronts.
    At their core, each working waterfront represents a local economic 
and land use issue, but across the country, each of these working 
waterfronts ends up facing many similar challenges. Whether it is a 
small family owned marina in Florida, larger port infrastructure in 
Washington, open access to facilities in California, or dredging the 
channels in the Great Lakes, the challenges facing working waterfronts 
have a Federal connection and Federal agencies are already involved in 
working waterfront businesses. This raises questions about how Federal 
agencies consider working waterfronts when they are awarding grants, 
promulgating regulations, or making permitting decisions.
    In addition to helping start a conversation about the issues above, 
H.R. 1176 directly addresses a conclusion reached in a report that the 
National Working Waterfront Network produced for the U.S. Economic 
Development Administration. The report found that there are very few 
Federal programs specifically available for working waterfronts and for 
those that are available, working waterfronts are an ``allowable use of 
funds'' rather than a ``primary use of funds.'' The report concluded 
that for these programs, ``lack of specificity makes them ineffective 
in addressing the drivers of change that threaten working 
waterfronts.''
    Investing in our Nation's working waterfront businesses, makes an 
investment at the center of economic activity for our coasts. 
Supporting these places and ensuring their long term viability as 
working waterfront infrastructure provides a connection that goes well 
beyond the bounds of the specific waterfront business. The benefits of 
these investments will flow to the broader community, and particularly 
in rural areas, will allow us to maximize the benefit from ocean 
resources and enhance the strength of our coastal communities.

    Thank you for your time.

                                 *****

The following documents were submitted as supplements to Mr. Snyder's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

                       appendices and attachments

    -- Island Institute--Waypoints--http://www.islandinstitute.org/
            waypoints

    -- Island Institute--Lobsters and Ocean Planning--http://
            www.islandinstitute. org/resource/lobster-and-ocean-
            planning

    -- Island Institute--Last 20 Miles--http://www.islandinstitute.org/
            resource/last-20-miles

    -- Sustainable Working Waterfront Toolkit--http://
            www.wateraccessus.com/docs/report/EDA_FinalReport.pdf

    -- 2015 Fisheries of the United States, NOAA--https://
            www.st.nmfs.noaa.gov/Assets/commercial/fus/fus15/documents/
            FUS2015.pdf

    -- National Working Waterfronts and Waterways 2015 Symposium 
            Report--http://www.wateraccessus.com/docs/symposia/
            senseofthesymposium2015.pdf

    -- National Working Waterfront and Waterways 2013 Symposium 
            Report--http://depts.washington.edu/wwater13/Sense-of-the-
            Symposium_Ir.pdf

    -- National Working Waterfronts and Waterways 2010 Symposium 
            Report--http://www.wateraccessus.com/docs/symposia/
            senseofthesymposium201O.pdf

    -- National Working Waterfronts and Waterways 2007 Symposium 
            Report--http://www.wateraccessus.com/docs/symposia/
            senseofthesymposium2007.pdf

                                 ______
                                 

    Mr. Lamborn. OK, thank you.
    Mr. Millar, you are now recognized for 5 minutes.

STATEMENT OF DAVID MILLAR, GOVERNMENT ACCOUNTS DIRECTOR, FUGRO, 
                      FREDERICK, MARYLAND

    Mr. Millar. Chairman Lamborn, Ranking Member Huffman, and 
members of the Subcommittee, thank you for this opportunity to 
appear before you. My name is David Millar, and I am the 
Government Accounts Director in the Americas for Fugro. I am 
pleased to provide comments on H.R. 221 today.
    Safe navigation in U.S. waters is vital to waterborne 
commerce, commercial and recreational fishing, and tourism 
around the country. It is also increasingly important for 
national security and homeland security missions. My background 
includes 28 years of experience with ocean and coastal mapping, 
including the delivery of hydrographic survey services to NOAA.
    Fugro is the world's leading independent provider of geo-
intelligence and asset integrity solutions for large 
construction, infrastructure, and natural resource projects. 
Our U.S. and Americas regional headquarters are located in 
Houston, with 1,200 employees across 37 offices in 13 states.
    Since 1997, Fugro has supported NOAA's Office of Coast 
Survey in the execution of hydrographic surveys all over the 
United States and its territories. Most recently, during the 
2016 and 2017 survey seasons, Fugro was contracted to provide 
hydrographic survey services of approximately 200 square 
nautical miles in Penobscot Bay, Maine. Until these surveys, 
mariners were relying on chart data that were between 67 and 
142 years old.
    In executing these surveys, Fugro verified in excess of 
4,200 features, submitted 154 dangers to navigation, and 
discovered one previously uncharted shipwreck. The surveys were 
conducted during the peak lobster and tourism season, which 
presented challenges due to high density of lobster traps and 
vessel activity. To gain efficiency, reduce costs, and lower 
risk to people and property, Fugro developed an innovative 
survey plan that integrated aircraft, laser, and camera 
technology, and vessel-based acoustic technology. This approach 
allowed the project to be completed almost twice as fast as 
traditional vessel-only surveys, and completely avoided 
conflicts with the lobster fishery.
    Much of the experience required to execute our work in 
Maine came from years of conducting equally challenging surveys 
in Alaska.
    Nationwide, NOAA is responsible for maintaining over 1,000 
charts and publications, covering 95,000 miles of shoreline and 
3.4 million square nautical miles of water. Over one-third of 
this area is located in Alaska, and as a result, the state has 
always been high on NOAA's list of charting backlog priorities.
    Fugro has been operating in Alaska since the mid-1980s and 
has conducted more than 20 hydrographic surveys for NOAA in the 
state, including areas where charts relied on measurements made 
by Captain Cook in the late 1700s. Current and accurate 
nautical charts are required to support shipping fisheries, 
energy and natural resource expiration and development, as well 
as naval and Coast Guard vessels responsible for patrolling and 
protecting these waters.
    Despite NOAA's efforts to decrease the charting backlog, 
the need in Alaska is daunting, and at the current pace it will 
take decades to address. Two recent incidents demonstrate the 
stakes in this region.
    First, in July 2015, the MV Fennica struck an uncharted 
rock in Alaska's harbor, delaying Shell's operation in the 
Chukchi Sea by more than a month.
    Second, in June 2016, the chemical tanker MV Champion Ebony 
ran aground on a non-charted shoal in southwest Alaska. She was 
carrying more than 14.2 million gallons of fuel products and, 
fortunately, was able to refloat without a spill.
    Turning to provisions included in H.R. 221, I would first 
like to thank Congressman Young for his strong support of the 
hydrographic survey work in the United States. While NOAA, the 
private sector, and many stakeholders who rely on accurate 
navigational charts are important to this discussion, it has 
been and continues to be Congress' role to determine levels of 
funding and to identify key priorities.
    As noted in the June 2017 GOA study on NOAA's use of 
contract surveyors, the agency said it is expanding its use of 
private-sector resources, but it is constrained, due to budget 
limitations. Congress provided direction to the agency to 
increase the use of contract surveyors in its 2009 amendments 
to the Act, and I believe H.R. 221 will ensure that progress is 
made to achieve this goal.
    I know these are challenging budget times. However, I am 
here to make the case that Congress should increase funding 
levels to support accelerated work to eliminate the charting 
backlog. Higher funding should cover contract survey work, as 
well as NOAA's internal contributions to this mission.
    Section 2 of H.R. 221 does increase the baseline levels for 
contract survey work, which is very positive, and it is my 
recommendation that Congress do as much as possible in this 
area to achieve real progress.
    Section 2(b) of the Act addresses funding and the Arctic 
charting activities with more and larger vessels expected to be 
operating in the Arctic Ocean in the future. The risks are 
significant. I believe it is safe to say that funds invested 
now through better navigational charts will be far less than 
the cost of addressing a maritime casualty in the U.S. Arctic.
    In conclusion, thank you for allowing me to give testimony 
on this matter. I would be happy to answer your questions for 
H.R. 221.

    [The prepared statement of Mr. Millar follows:]
   Prepared Statement of David Millar, Government Accounts Director--
                      Americas, Fugro on H.R. 221
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, thank you for this opportunity to appear before you as 
you consider a trio of water bills. My name is David Millar and I am 
the Government Accounts Director--Americas for Fugro, based in 
Frederick, Maryland. In particular, I will be providing comments on 
H.R. 221, a bill to reauthorize the Hydrographic Services Improvement 
Act of 1998. Safe navigation in U.S. waters is vital to waterborne 
commerce, commercial and recreational fishing, and tourism around the 
country. It is also increasingly important for national security and 
homeland security missions.
    My background includes 28 years of experience with marine 
navigation and positioning, hydrographic survey, and ocean and coastal 
mapping. I was recently appointed as Government Accounts Director--
Americas, where I serve as Fugro's key account manager for the U.S. 
Government, other national governments within the Americas Region, the 
United Nations, the World Bank, and other multilateral development 
banks. In this capacity, I interface between Fugro's government 
customers and all of Fugro's site characterization and asset integrity 
service offerings across the company's land and marine divisions. I 
also serve on the board of directors for The Maritime Alliance, as well 
as the Establishment Board of Seabed 2030. For the 8 years prior to 
this appointment, I served as the President of Fugro Pelagos, Inc., a 
Fugro company specializing in hydrographic survey and ocean and coastal 
mapping. My responsibilities included managing approximately 80 staff 
and an annual budget of approximately $20M. I also oversaw the delivery 
of hydrographic survey services to NOAA, as well as the expansion of 
these services to other national hydrographic offices, including CHS 
(Canada), UKHO (United Kingdom) and GCS (Kingdom of Saudi Arabia).
    Fugro is the world's leading, independent provider of geo-
intelligence and asset integrity solutions for large construction, 
infrastructure, and natural resource projects. We provide the technical 
data and information required to design, construct, and maintain 
structures and infrastructure in a safe, reliable, and efficient 
manner. Our U.S. and Americas regional headquarters are located in 
Houston, Texas, and we employ 1,200 employees across 37 offices in 13 
states in the United States. Working predominantly in the energy and 
infrastructure markets, we serve both public- and private-sector 
clients on land and at sea.
    Fugro has been a contractor for NOAA, National Ocean Service (NOS), 
Office of Coast Survey (OCS) backlog support since the mid-1990s and 
has been an industry partner with NOAA's University of New Hampshire 
Center for Coastal and Ocean Mapping/Joint Hydrographic Center (UNH 
CCOM/JHC) for almost as long. Through this partnership, innovation, 
research and development in the area of ocean and coastal mapping has 
been successfully adopted and applied by Fugro to non-hydrographic 
survey applications, such as deep ocean search and hydrocarbon seep 
exploration. Most recently, these technologies were utilized by Fugro's 
United States staff to map approximately 900,000 km<SUP>2</SUP> in the 
Gulf of Mexico, making it the largest hydrographic survey ever 
executed.
    In addition to its contract with NOAA OCS, Fugro also holds multi-
year contracts with NOAA's National Geodetic Survey (NGS) and Office 
for Coastal Management (OCM), as well as with the U.S. Army Corps of 
Engineers (USACE), the U.S. Geological Survey (USGS), the U.S. Bureau 
of Reclamation (BOR), the Federal Emergency Management Agency (FEMA), 
and the U.S. Navy.
    Since 1997, Fugro has supported NOAA's OCS in the execution of 
hydrographic surveys all over the United States and its territories, 
including Maine, the Gulf of Mexico, the Marianas Islands, and Alaska. 
Most recently, during the 2016 and 2017 survey seasons, Fugro was 
contracted to provide hydrographic surveying services of approximately 
200 km<SUP>2</SUP> nautical miles in Penobscot Bay and Jericho Bay in 
Maine. The area, characterized by a vibrant lobster fishery and high 
vessel traffic, was identified by NOAA as a priority area for nautical 
chart updates. Until these surveys, charts in the area were between 67 
and 142 years old and lacking in detail due to technology limitations 
at the time of the prior surveys. One difficult aspect of conducting 
surveys in coastal Maine is the complexity of the coastline and the 
large number of submerged rocks. In fact, over the two seasons, Fugro 
verified in excess of 4,200 features, submitted 154 Dangers to 
Navigation, and discovered one previously uncharted ship wreck.
    The survey, over the highly complex coastline and shallow waters, 
was also challenged by the peak of lobster season, due to the high 
density of lobster trap rigging and the continual need for avoidance 
maneuvering. In an effort to gain efficiency, reduce costs, and lower 
personnel/property risk, Fugro developed a survey plan that involved 
the integration of aircraft-based laser and camera technology with 
vessel-based acoustic technology. Such an approach allowed the project 
to be completed almost twice as fast as traditional vessel-only based 
surveys, while avoiding conflict with the lobster fishery. To this end, 
NOAA and Fugro proactively engaged the Maine Lobstermen's Association 
in advance of the surveys, maintained constant communications during 
the surveys, and hosted a Stakeholders Meeting in Belfast, Maine, in 
September 2017.
    Much of the experience required to execute such a complex set of 
projects in Maine came from years of conducting equally challenging 
surveys in Alaska. Fugro has been operating in Alaska--specifically 
Arctic Alaska--since the mid-1980s, and over the past 20 years has 
conducted on the order of 20 hydrographic surveys for NOAA in the 
state. Nationwide, NOAA is responsible for maintaining over 1,000 
charts and publications, covering 95,000 mi of shoreline and 3.4 
million nautical mi<SUP>2</SUP> of water. Over one-third of this area 
is located in Alaska, and as a result, the state has always been high 
on NOAA's list of charting backlog priorities. Over the 20 years that 
Fugro has supported NOAA in Alaska, the company conducted surveys in 
areas where data on the nautical charts were acquired by Captain James 
Cook, and in others where no prior data existed; i.e., areas that had 
never been surveyed before.
    The backlog of hydrographic survey data and nautical charting 
updates in Alaska has always been daunting, but an ice diminishing 
Arctic is compounding the demand. The reduction in sea ice in the 
Arctic Ocean means that the region is seeing continued increases in 
vessel activity, making the need for current and accurate nautical 
charts ever more urgent. These data, which can really be considered the 
most basic form of infrastructure, are required to support an already 
evident increase in shipping and cruise industry traffic, the 
inevitable activities associated with energy and natural resource 
exploration and development, as well as the naval and Coast Guard 
vessels that will ultimately be responsible for patrolling and 
protecting these waters. In fact, in recent years, Fugro has conducted 
numerous surveys in the Beaufort and Chukchi Seas in support of oil and 
gas exploration, as well as infrastructure development, including the 
survey of a submarine cable route that connects several remote 
communities along the north and west coast of Alaska. Data from this 
survey were also provided to NOAA by the owner, as an outside source 
data contribution.
    Despite NOAA's annual efforts to decrease the growing hydrographic 
data and nautical charting backlog, the need in Alaska is daunting and 
it will take decades to address. Two recent incidents demonstrate the 
stakes in this region. First, in July 2015, the MV Fennica struck an 
uncharted rock in Unalaska's harbor. The incident was unfortunate on 
many levels, but first and most importantly because the MV Fennica was 
a required support vessel for Shell's drilling activities in the 
Chukchi Sea. The resulting damage necessitated repairs in the Lower 48, 
which delayed Shell's operations by more than a month. Second, on June 
24, 2016, the chemical tanker MV Champion Ebony ran aground on an 
uncharted shoal near Nunivak Island in southwest Alaska. She was 
carrying more than 14.2 million gallons of fuel products, and 
fortunately was able to refloat without a spill. Both of these near-
misses demonstrate the value of current and accurate charts that are 
created using modern survey technologies and methods.
    Beyond the Arctic, many other areas also face significant data gaps 
and charting backlogs. In fact, the United States has yet to map its 
extended continental shelf using modern methods. This situation is 
further complicated by the impact of major storms and hurricanes. Every 
time a major storm or hurricane hits the United States, NOAA's 
hydrographic survey and nautical charting backlog priorities are 
overshadowed by post-hurricane mapping priorities. NOAA's limited 
resources and budgets often need to be re-directed to address the 
urgent needs that follow a major hurricane, such as those recently 
experienced with Hurricane Harvey, Hurricane Irma and Hurricane Maria. 
These events destroy coastal infrastructure, cause coastal erosion, and 
change the accuracy of existing nautical charts. In many cases, natural 
shoals and man-made debris appear in locations where they did not 
previously exist. This obviously creates an extremely dangerous 
situation and liability that needs prompt resolution. So, when these 
events occur, NOAA needs to immediately re-prioritize and is not able 
to progress the already delayed mapping of its hydrographic survey and 
nautical charting backlog.
                          comments on h.r. 221
    Turning to provisions included in H.R. 221, I would first like to 
thank Congressman Young for his strong support of hydrographic survey 
work in the United States. While NOAA, private sector hydrographic 
survey companies, and the many stakeholders who rely on current and 
accurate navigational charts, are important to this discussion, it has 
been and continues to be Congress' role to determine levels of funding 
and to identify key priorities.
    As noted in the June 2017 GAO Study, ``Hydrographic Surveying--NOAA 
Needs Better Cost Data and a Strategy for Expanding Private Sector 
Involvement in Data Collection,'' NOAA has indicated that it is working 
to expand its use of private sector resources, but is constrained due 
to budget limitations and challenges with its own internal cost 
accounting. Congress provided direction to the agency in its 2009 
amendments to the Act to increase the use of contract surveyors, and 
H.R. 221 will help to ensure that progress is made to achieve this 
goal.
    In these challenging budget times, I understand that choices must 
be made and not all compelling national priorities can receive ideal 
levels of funding. However, I am here to make the case that Congress 
should consider increasing the authorizing levels to support 
accelerated work to eliminate the hydrographic charting backlog. 
Specifically, funding should include both higher levels for contract 
survey work, as well as more robust funding to allow NOAA's assets to 
continue to contribute to this mission. Section 2 of H.R. 221 does 
increase the baseline levels for contract survey work, which is very 
positive, and it is my recommendation that Congress do as much as 
possible in this area given budget constraints.
    It should be mentioned that the NOAA Charting Backlog program, 
along with its industry partners and various R&D/innovation initiatives 
at UNH CCOM/JHC, have combined to be the leading technologies creators, 
developing multibeam echo sounder (MBES) technology and related 
applications and improvements that have ultimately been adopted and 
applied, and which have extensively benefited industry end users. Since 
the early 2000s a small sampling list of such applications includes 
TrueHeave<SUP>TM</SUP>, MBES Snippets, and Geocoder. This small 
sampling of applications, integrated into various seabed mapping 
industries in the United States alone, directly benefits more than $200 
million of mapping services annually. So, the value of NOAA's 
hydrographic survey and charting backlog program extends beyond direct 
contracts for civil hydrography, but includes the application of the 
associated and jointly developed technologies and methodologies to 
private sector mapping applications at a value many times greater.
    Section 2(b) of the Act addresses funding for Arctic charting 
activities. Earlier I referenced two incidents in U.S. Arctic waters 
that underscore the critical need for up-to-date navigation charts--
near misses involving the M/V Fennica and the M/V Ebony Champion. In 
both cases vessels struck uncharted, or inaccurately surveyed, 
submerged features. With more and larger vessels expected to operate in 
the Arctic Ocean in the future, the risks are significant in this 
region, and I cannot emphasize strongly enough how important it is to 
continue to aggressively attack existing charting deficiencies to avoid 
a maritime casualty with potentially catastrophic environmental 
consequences. I believe it is safe to say that funds invested now to 
reduce these risks through better navigational charts will be far less 
than the cost of addressing a maritime casualty in the U.S. Arctic.
                               conclusion
    Once again I would like to thank the Committee for allowing me to 
provide this statement for the record and to give testimony on this 
matter. Improving the Nation's hydrographic charting capabilities and 
ensuring the safe navigation is a critical mission and Congress' 
attention to this issue will help advance the goal of eliminating risks 
to maritime activities. H.R. 221 supports the continuation of the 
partnership between NOAA and companies such as Fugro to reduce the cost 
of hydrographic charting and maximize the ability to survey priority 
areas and eliminate the charting backlog. I would be happy to answer 
any questions from the Committee on H.R. 221.

                                 ______
                                 

    Mr. Lamborn. All right, thank you. Thank you all for being 
here and for your testimony.
    At this point, we will begin our questions for witnesses. 
To allow all of our Members to participate, and to ensure we 
can hear from all of our witnesses today, under Committee Rule 
3(d), Members are limited to 5 minutes for their questions. I 
will now recognize myself for 5 minutes.
    Governor LePage, thank you for being here. On this 
Subcommittee, we are great supporters of our fishing 
communities and working waterfronts. Coming from a state like 
Maine, I am sure you would also support preservation of working 
waterfronts, and I am sure that is an accurate statement, yes?
    Governor LePage. Yes, that is very much an accurate 
statement.
    Mr. Lamborn. Unfortunately, we have seen time and again 
that complex layers of Federal bureaucracy can result in 
government agencies undermining states, especially when it 
comes to resource management. I believe you had mentioned that 
Maine has a state-run initiative to preserve working 
waterfronts. Could you elaborate on that, and tell us what kind 
of support that has within the state of Maine?
    Governor LePage. Yes. Right now--in fact, in 2018--we have 
between $2.5 and $3 million that is going to be dedicated for 
the management of preservation of coastal waterfront.
    The big issue in Maine--and I really urge you to give this 
some serious thought, because we are now doing a massive survey 
of our state. And what is happening with a lot of Federal 
programs that make money available for preservation and 
conservation, land is purchased and put into non-profits. We 
have 476 communities that are struggling to operate their 
community because of rising taxes. We have the ninth highest 
property taxes in the country. We have billions upon billions 
of valued property, particularly on the coast of Maine, that is 
non-taxable.
    I urge you, whatever you do, if you provide money for 
funding--and, first of all, if you do anything, please provide 
the funding. Number two, I would ask you to put in the law that 
the land has to stay on the tax rolls. And three, I would 
strongly urge you to limit the number of agencies involved.
    If you have NOAA, U.S. Fish and Wildlife, and the state of 
Maine, you have a tripod. And I am going to tell you it is very 
difficult, because one arm of the Federal Government does not 
necessarily discuss things with the second arm of the Federal 
Government, and then you come into state regulations, and they 
conflict among all of them. And it takes time and again.
    And I will go back to what I said earlier about the Saco 
River. The levee was put in in the 1860s, under Abraham 
Lincoln. We have lost, I don't know, a couple of dozen homes, 
several streets. The city is going out to the ocean, and nobody 
is addressing it. And we still are awaiting the Army Corps to 
give us reports on and funding to remedy the problem. So, I 
just urge you very, very strongly to be cautious.
    Mr. Lamborn. All right, thank you for that. I know that 
many Federal programs are well intended, but there are 
unforeseen and unintended consequences.
    Mr. Millar, I would like to ask you a question. You made 
reference to two ship collisions or strikes off of Alaska. Were 
both of these due to outdated or inaccurate navigational 
charts?
    Mr. Millar. Yes, in both those instances, a vessel struck 
features that were not charted, or represented on the charts, 
which is a function of the vintage of the prior data, or the 
collection of the prior data.
    Mr. Lamborn. And would this have been avoided if NOAA had 
been able to fully address their hydrographic data backlog?
    Mr. Millar. Yes, I would say so. The purpose of addressing 
the backlog is to try to use modern methods and technologies to 
update these charts, and doing so would have most certainly 
detected those hazards and obstructions.
    Mr. Lamborn. Would the passage of this bill, H.R. 221, help 
address that problem?
    Mr. Millar. Yes. Very much so, I think. As I mentioned in 
my testimony, this program is very important. The NOAA private 
sector relationship is important. And increasing collectively 
funding for this mission is important.
    Mr. Lamborn. And besides safety, which we have already 
discussed--and thank goodness that vessel carrying fuel, what, 
14 million gallons of fuel products, was not breached, and 
there was no spill--what other activities and industries are 
supported, besides just safety itself?
    Mr. Millar. Yes, these surveys and these technologies 
actually can be used for other purposes beyond updating 
nautical charts. One example would be fisheries, so mapping of 
fisheries habitat for management and protection. It can also be 
used for oil and gas exploration purposes, so these methods and 
technologies are used to search for seabed seeps to help 
identify gas and oil reserves.
    Mr. Lamborn. OK, thank you. At the request of the Ranking 
Member, we are going to start with questions from 
Representative Bordallo of Guam for 5 minutes. And I will be 
giving the gavel to Representative Wittman of the great state 
of Virginia.
    Ms. Bordallo. Thank you very much, Chairman Lamborn and, of 
course, Ranking Member Huffman.
    I have never had signage behind me in Congress, and I have 
been here for almost 15 years. So, I know it is beautiful. I 
have questions for Dr. Callender.
    I want to thank you for your career of service, including 
now as the Assistant Administrator of NOAA. I hope you are 
aware of the great work that NOAA's staff are doing on Guam, 
including the community coral reef monitoring program. However, 
we can always use more agency resources and personnel to 
fulfill NOAA's responsibilities to Guam and, of course now, the 
very expansive Micronesian region.
    My first question, Doctor, is I plan to reintroduce my bill 
authorizing the Coral Reef Conservation Act. My staff worked 
closely with NOAA on the reauthorization bill during the 
previous Congress, and I would very much appreciate the 
agency's continued assistance and expertise as I revamp my bill 
for this Congress.
    Can you please commit that NOAA will provide timely 
feedback on the discussion draft, once ready, to address 
technical aspects of the bill? I just need a yes or a no.
    Dr. Callender. Yes.
    Ms. Bordallo. Thank you. My next question, my bill will 
provide additional congressional direction and dedicated 
funding for NOAA's coral reef program, including an 
authorization for the U.S. Coral Reef Task Force. Doctor, can 
you please speak to the National Ocean Service's work relating 
to healthy coral reefs and the challenges facing those 
ecosystems?
    Dr. Callender. Yes, absolutely. Currently, I am the Acting 
Co-Chair of the Coral Reef Task Force, so I have been engaged 
for over a year, although I have been a lifelong fan of coral 
reefs, if you will.
    There are numerous threats facing coral reefs, including 
warming seas, ocean acidification, sea-level rise, land-based 
pollution impacting reefs, locally unsustainable fishing 
practices, the list goes on. These reefs are under threat. We 
do have a lot of interest looking at opportunities to restore 
reefs, focusing on coral intervention strategies. We are 
helping to support monitoring efforts.
    And one of the key things is a partnership and dialogue 
with local leaders and experts. This is not all coming from 
Washington or my staff. We work very closely with all of the 
jurisdictions in this country that have coral reefs. I work 
with the All Islands Committee, for example, to ensure that we 
understand and are addressing local challenges to reefs, as 
well as larger global challenges.
    Ms. Bordallo. Thank you. My last question, many, including 
our Nation's marine laboratories, have concerns about continued 
access to taxpayer-funded science under this Administration, 
particularly the data sets that showed the consequences of 
warming global oceans. Can you outline the National Ocean 
Service's commitment to keeping agency science and data sets 
fully available to the public and archival permanently online?
    Dr. Callender. NOAA, across the board, is a science-based 
service organization. And we are committed to making our 
science and data fully available to the public, and archived 
permanently. There are numerous ways to get to the data: NOAA 
data catalog, the National Centers for Environmental 
Information, digital coast, partnerships with industry on big 
data; but the key is there are opportunities to get to those 
data, and those data are archived, permanently.
    Ms. Bordallo. Thank you very much for answering the 
questions, Doctor, and I appreciate the work you have done in 
Guam, and I hope you can continue--Guam and the other 
territories in the region.
    Dr. Callender. Thank you.
    Ms. Bordallo. I yield back.
    Dr. Wittman [presiding]. Thank you, Ms. Bordallo. We will 
now go to Mr. Young.
    Mr. Young. I want to thank the panel for their testimony.
    White Mountain, is that where you had those great elk?
    Mr. Velasquez. Yes, sir.
    Mr. Young. OK. I am a great elk observer. I want you to 
know that, keep that in mind.
    Dr. Callender, the U.S. Arctic Exclusive Economic Zone is 
550,000 square nautical miles. How much of the area has NOAA 
surveyed in the past 2 years?
    Dr. Callender. In the last 4 years, we have surveyed an 
average of about 500 square nautical miles in the Arctic 
Region.
    Mr. Young. Five hundred and fifty thousand. And how did you 
decide on the EE Zone that half is navigational significant and 
the other designated--only 38,000 square nautical miles has 
surveyed priority areas--how did you reach that conclusion, 
when the rest of it is not considered? I mean what information 
did you have?
    Dr. Callender. Certainly, for working in the Arctic area we 
have developed a U.S. Arctic charting plan. And this plan was 
informed by an Anchorage charting workshop, Federal Register 
notice, opportunities for public comments, meeting with 
Federal, state, local, and government stakeholders, and that is 
what is informing our plans for developing approximately 11 new 
charts planned in the Arctic in the next 10 to 15 years.
    Mr. Young. All right. And because this is very important, 
with the transportation increasing up there in the oceans, I 
want to know how you figured out where you are going to map. 
And are you dealing with the AMO and the rest of them, the 
shipping companies or anything that they want mapped?
    Dr. Callender. Yes, absolutely. What we do is we do engage 
with shipping companies. We engage in conversations with port 
authorities, we engage in conversations at the state level to 
understand the needs.
    Mr. Young. OK. I am going to ask you another question, are 
the NOAA ships doing this work, and how much has been done by 
NOAA and how much has been done by private contractors?
    Dr. Callender. In the last fiscal year, roughly 40 percent 
of our charting activities were done by the contract fleet.
    Mr. Young. Curiosity. What is the difference between using 
a NOAA ship and private, as far as costs go?
    Dr. Callender. You would think that would be a very simple 
answer, and I have struggled with this one myself--that was the 
whole point of the GAO study. We have received this report from 
GAO, and one of the challenges that they identified that we are 
currently working to better understand is how do we depreciate 
the capital assets that we have in the Federal fleet, how do we 
look at service life extensions, how do we look at 
recapitalization costs.
    It is sort of an apples-and-oranges comparison to the 
contract fleet. We are working very diligently to address that 
study, and working to better look at the methodology identified 
by GAO and compare that to our own methods.
    So, I don't have a great answer for what those costs are, 
except we are trying very diligently to sort that out.
    Mr. Young. The chances of you getting more ships is another 
question, because I do believe this has to be mapped. I am 
encouraging you to look at, and if we can get the money to you, 
to contract as much as you can, as long as they do a 
significant job.
    That is something very important. I don't think we can keep 
delaying this, because we are going to have countries, China, 
primarily, Russia, a lot of ships that if we don't have 
properly mapped could potentially be very dangerous to the 
state of Alaska, and that is really what I am concerned about.
    The report, by the way, was that an updated report, or is 
that a different report?
    Dr. Callender. This came out in the summer, I think it was 
June of this year.
    Mr. Young. Is it current? I had a little bird in my ear 
tell me that it really does not apply. I don't know what they 
meant by that.
    Dr. Callender. I am not sure what they meant by that, 
either. The GAO report does look at and charge NOAA with 
looking at the costs of the Federal fleet versus the contract 
fleet.
    Mr. Young. Again, Governor, thank you for your comments. 
You know, I am willing to work--I am like you, I don't really 
like the Federal Government coming in and interfering with the 
state. I have seen that happen. We are one of the few states--I 
don't believe we have a Coastal Management Zone agreement for 
that one reason. It starts getting double-layered, and it is 
not good. So, thank you for being here.
    Thank all of you. I yield back.
    Governor LePage. My pleasure.
    Dr. Wittman. I thank Mr. Young. We will now go to Mr. 
Huffman.
    Mr. Huffman. Thank you, Mr. Chairman.
    Governor LePage, welcome back. I think we may disagree on 
the merits of Ms. Pingree's bill, and certainly I think we 
disagree on whether private property owners who want to donate 
land to help create national monuments should be allowed to do 
so. But I am always looking for common ground, and I think I 
have found one thing that you and I can agree on.
    In May of this year, you wrote a letter to Commerce 
Secretary Ross, urging him to redistribute any permits 
forfeited by disgraced pirate fishing tycoon Carlos Rafael. And 
rather than allow those permits to be held or purchased by 
Rafael's family or associates, you said they should be 
distributed broadly. And I agree with you on that.
    Since that time, Mr. Rafael has been sentenced to 46 months 
in prison for violations of the Lacey Act. But the fate of his 
vessels, permits, and quota remains unclear. And also, NOAA has 
still not exercised its authority under the Magnuson Act to 
seize vessels, sanction permits, or impose civil penalties.
    So, like New England, I have a district that includes a 
ground fish fishery that has struggled in the past. And I know 
that if this situation occurred in our fishery, my constituents 
and I would be just as outraged as you and a lot of Mainers are 
by this Codfather situation.
    It seems to me that Mr. Rafael's criminal empire has 
contributed to the decline of working waterfronts throughout 
the region, so I want to ask you a few questions.
    First, do you think that fishermen and fishing communities 
across New England have been harmed by these crimes?
    Governor LePage. Yes, absolutely.
    Mr. Huffman. Do you believe that Mr. Rafael's assets should 
be sold to one company, as has been reported in the media, or 
broken up to prevent his crimes repeating because another too-
big-to-fail fishing conglomerate acquired these assets?
    Governor LePage. I absolutely believe it should be broken 
up.
    Mr. Huffman. And do you think that excessive consolidation 
and vertical integration of Mr. Rafael's fishing business 
contributed to his ability to get away with these crimes for so 
long?
    Governor LePage. No, I just think it was a lack of 
character.
    Mr. Huffman. OK. Well, we have a lot of agreement on this, 
Governor, so I appreciate your answers to these questions.
    Mr. Snyder, I wanted to ask you a little more about the 
history and culture that are tied to the coast and to the 
industries that started many of our coastal cities. Can you 
explain to us, when we talk about these working waterfronts, 
the cultural and historic importance of preserving these 
resources, and how that provides social benefits beyond just 
economic development?
    And, I am sorry, Dr. Snyder.
    Dr. Snyder. One of the things that drove the creation of 
the programming in Maine was really a look at the equity issues 
around how forestry and farming were treated relative to 
fishing.
    All three are on our flag, and all three were not treated 
equally in the state, in terms of how we would work to make 
sure that working people could continue to have access to 
land--frankly, land that is increasingly valuable and, as 
Representative Pingree noted, where taxation and other, 
basically, the fact that commercial tax--I will just say this 
really quickly. If they were being taxed at their highest and 
best use, they were no longer able to afford to keep their 
property, which is the way the state laws had been written.
    So, we needed to come up with a way to categorize working 
waterfronts, where they could be taxed at their commercial 
value, rather than at their highest and best use. And that 
fundamental shift in the way the legislation was written was 
really important in the state of Maine. It allows those 
properties to continue to be taxed, and for the state and the 
communities to benefit from that commercial activity, but it 
does so in a way that is more aligned with the intended use of 
the property.
    And frankly, when you talk about the cultural value, not 
only is it on our flag, it is absolutely an important way that 
New England identifies itself. I mean we tell stories to 
ourselves all the time in the news, and the fact that there is 
somebody who could be identified as the Codfather, in fact, 
ties directly to this image we have of ourself as a region, as 
a place of fishing, a place of frontiers, a place where rural 
people go out to sea to make their livelihood.
    And I feel like that drives a lot of the discussions about 
who we are and who we are becoming, right? Every time a 
community like yours or ours thinks about making a change on 
the waterfront, they are really struggling between the kind of 
sense of continuity that is so important to every one of these 
communities tied to the natural resource base, whether it is 
groundfishing, lobstering, aquaculture, some future uses that 
we cannot see yet, and kind of who we want to be and what we 
want to have available to our families so we can enjoy our 
lives in these places.
    Mr. Huffman. Thank you, Doctor. I yield the balance.
    Dr. Wittman. Thank you, Mr. Huffman. And we will now go to 
Mr. Gosar.
    Dr. Gosar. I thank the Chairman.
    I want to thank you, Vice Chairman Velasquez, for making 
the long trip from Arizona and for your testimony. And please 
forward on to Chairman Lupe our best regards.
    The White Mountain Apache Tribe's water rights settlement 
of 2010 was good for the tribe, Arizona, and the United States. 
It is clear in your testimony that the rural water system is 
important to the tribe. But there are other stakeholders, as 
well, that have benefits, like SRP in the city of Phoenix, 
right?
    Mr. Velasquez. Yes, sir.
    Dr. Gosar. Now, as you stated, Senate Bill 140 makes a 
technical correction to an existing water right settlement to 
clarify the congressional intent of the settlement. I want to 
thank the Chairman and the Vice Chairman for bringing up this 
important legislation to help provide certainty to the tribe 
and to my state.
    I would also like to enter into the record two letters, one 
from SRP and one from the Arizona Department of Water Resources 
for the record in support.
    Governor LePage, I first want to thank you for coming down 
to DC, and giving a true state perspective. It is something 
that is badly needed around this place.
    Second, also, in contradiction to the Ranking Member, I 
want to apologize that you experienced some of the anguish that 
many of my constituents have felt. Of course, I am referring to 
the Obama administration's behind-closed-door tactics that 
resulted in the designation of the national monument in 
northern Maine, a monument that was designated against the 
wishes of yourself and many of your constituents.
    H.R. 1176 could result in your Maine constituents once 
again feeling the pain like Western Americans. As you have seen 
firsthand in western water policy, when you have the Department 
of the Interior and the Department of Commerce overlap, it 
generally results in agencies going in completely different 
directions. Just ask our California colleagues. I think we are 
more likely to see a unicorn walk through the hearing room 
doors right now than we are to see these two agencies to be on 
the same page.
    Fortunately, the Trump administration has put a lot of 
focus on streamlining the Federal actions and eliminating 
duplications. Do you think this bill supports the 
Administration's policies? Or does this bill take us backwards?
    Governor LePage. I believe it takes us backwards from the 
standpoint of too many Federal agencies involved and the right 
hand not knowing what the left hand is doing. Like state 
government, the Federal Government is in silos. And, 
unfortunately, not all the agencies work together, or have the 
same agenda on what they are trying to accomplish, based on the 
laws that are passed by Congress.
    So, if this moves forward, I urge you to have it under one, 
and I would prefer to see it under Commerce, because we are 
talking about working waterfronts. I think it is very 
important.
    I would also say this. According to the recent EDA report, 
there are currently 80 Federal funding mechanisms for working 
waterfront properties in this country.
    Dr. Gosar. Well, I am glad you brought that up, because 
that is exactly where I am going to.
    What we did is we pulled this up off of the website for Mr. 
Snyder. There are two types of available grants. There are the 
coastal communities grants and shore and harbor management 
grants.
    Shore and harbor planning grants will be awarded to 
projects that promote sound waterfront planning and harbor 
management, balanced development of shore and harbor areas, 
advanced planning for waterfront infrastructure improvements, 
and access to shore. And finally, created in 1978, the Maine 
Coastal Program is a Federal, state, local partnership under 
the Coastal Zone Management Act.
    It seems to me that the Maine coastal programs that are 
highlighted here achieve many of the goals proposed under this 
legislation. Would you agree?
    Governor LePage. Yes, absolutely.
    Dr. Gosar. I think the Administration would agree with you, 
as well, according to their testimony: ``Under the Coastal Zone 
Management Act, coastal states have discretion to use funding 
to address the needs of working waterfronts.'' This admission, 
coupled with the successful state programs like Maine's would 
indicate that this bill unnecessarily heaps Federal bureaucracy 
on to states.
    I stand ready to work with the states in a transparent 
fashion to allow them to better and more freely manage their 
resources. But I do not think a top-down management approach is 
quite the answer. The Federal Government does not know all.
    And, with that, I will yield back.
    Oh, I have one more letter to enter into the record from 
the city of Phoenix for Senate Bill 140.
    Dr. Wittman. Very good. With no objection, so ordered on 
entering the letters that you presented into the record.
    Thank you, Mr. Gosar.
    Now, we will go to Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, and thank all of you 
for being with us this morning.
    I want to just quickly respond and add an addendum to my 
friend Mr. Gosar from Arizona's comments on the Maine monument, 
and just point out that the Katahdin Woods and Waters was 
privately purchased in a free-market economy with money earned 
from a private enterprise, and it was given to the American 
people in perpetuity, and that Obama's simple recognition was 
an acceptance of this gift to the American people. And whether 
it was a monument or not, it was given to us in perpetuity, and 
was going to be land open to the American people.
    Dr. Callender, recent studies show that in the Arctic 
multi-year sea ice continues to disappear at a very rapid rate, 
and may soon become entirely ice-free. We read about the 
Northwest Passage year after year. These are drastic 
environmental changes, and they can have similarly large 
consequences for national security, research, navigation, 
commerce, safety, hydrographic and mapping data needs.
    With all these forthcoming challenges, can you elaborate on 
current and future priorities, and the need for these 
hydrographic surveys and mapping in the Arctic, stuff that we 
largely have not been able to map or see before now?
    Dr. Callender. I think you have stated the problem 
incredibly well. With the waterways opening up, with ice-free 
periods and seasons becoming longer and longer, we are going to 
see more commerce in the Arctic. We are going to see more 
activity in the Arctic. This is clearly an issue not only for 
commerce, but for national security and for energy exploration.
    How do we keep these ships and the people on them safe? How 
do we ensure that there is little risk of spills of oil or 
other toxic contaminants? We need these charts. Clearly, the 
progress that we are making is slow, but we are doing 
everything we can with the resources that we have to do that 
work. The fact that we have a strong partnership with the 
private sector on the contracting side, I think, is going to 
accelerate the opportunities and the ability to chart that 
region. But we need to keep moving as fast as we can to 
continue that work.
    Mr. Beyer. Thank you very much.
    Mr. Snyder, I am really interested in hearing more about 
your many years with working waterfronts, and specifically 
examples from Maine or other places. Can you elaborate on the 
importance of working waterfronts to diversifying coastal 
economies and strengthening communities?
    Dr. Snyder. Sure, thank you for the question. I think 
people tend to think about the edge of the land as kind of the 
end of the earth in some ways, where you don't end up thinking 
about it as the beginning of this entire access to an economy, 
where people are bringing their fish ashore, but that is not 
where it ends. It ends when, as we heard earlier, there are 
restaurants that take advantage of the landed product, there 
are different ways that people have found to add value to 
products.
    I was actually visiting with somebody the other day in 
Maine, Oceans Organic, who takes the seaweed and they do 
chemically refined fertilizers that they sell to the NFL to 
produce better fields. And, there are these ways that products 
that people are harvesting off the coast of Maine are actually 
showing up in the world in really surprising, value-added ways 
that nobody could have imagined, years ago.
    So, this idea that if you put the effort into making sure 
that people will always be able to cross that divide between 
land and sea, will always be able to bring those products 
ashore, whether it is kelp for future energy needs, or whether 
it is shellfish that is going to restaurants, or whether it is 
some other biotech product that is going to be developed as a 
result of the seafood that is gathered off our coast, or the 
fish that are gathered off our coast, we are going to find ways 
to continually evolve our economy, as a result of having done 
the work we need to to ensure that access point.
    One of the challenges to all of this is that those access 
points are often shared. They are not individually owned. It is 
not one business. It is ultimately many businesses that rely on 
both the water side and on the land side.
    So, if we want to look at the processing facilities, or the 
trucking companies, or the different ways that these businesses 
show up in our communities because their kids participate in 
our schools, they spend their money in our stores, all of the 
ways that fishermen and the broader network of that economy 
participates has a great deal to do with the fact that a place 
like Rockland is not just about fishing any more, it is about 
art, it is about recreation. It is about all those things 
because people are attracted there because it has a vibrant 
working waterfront.
    And that vibrant working waterfront bleeds out into an 
incredibly interesting and diverse economy that supports a 
range of livelihoods, some of which are still tied to the sea, 
and many of which are not.
    Mr. Beyer. That is a wonderful answer. Thank you very much. 
I just read a study last week on happiness. They said that 
people who live by water are much happier than people that do 
not.
    Dr. Snyder. Well, I think you are right.
    [Laughter.]
    Mr. Beyer. Mr. Chairman, I yield back.
    Dr. Wittman. Thank you, Mr. Beyer. We will now go to Mr. 
Hice.
    Dr. Hice. Thank you, Mr. Chairman. And I think you are 
right, as well. We live on water, and it just cannot get any 
better than that.
    Let me just get straight to--I have one primary question, 
and then, Mr. Chairman, I would be happy to yield to you if I 
have some time left over.
    Governor, let me ask you this. As you know, Georgia has 
been part of the Coastal Zone Management Program since 1998. 
And this was originally designed to be a state-driven voluntary 
program to provide states assistance in managing their own 
coastal areas without a lot of government interference, or at 
least less.
    And I am sure you and I both agree that working waterfronts 
are very important. But do you think this system that we are 
discussing today is in the best interest of our Nation's 
coastal resources?
    Governor LePage. No, and I will tell you why for two 
reasons.
    Number one, most Federal programs are good-intentioned, and 
this particular program is just an add-on to the 80 Federal 
financing programs that are available to working waterfronts.
    The issue is this, as a governor, when you have multiple 
Federal agencies involved in managing or oversight over a 
state, as I said earlier, the right hand does not know what the 
left hand is doing, and so there is conflict in regulations 
between the Federal agencies and there is conflict between the 
states. And then time elapses before anything can get done.
    Earlier, we were talking about working waterfronts. I would 
also say that working forests for Maine are very, very 
important. And you know, people seem to suggest that I am 
against the national monument, but I would say this. If you 
look at the reality of life, and reality of what is happening 
in our state, in 1947 Acadia National Park burnt flat. Seventy-
five percent of major forest fires in this Nation occur on 
Federal lands.
    The monument we talk about in Maine backs to the state 
park, which is a jewel of the state that we received from a 
governor back in 1937. That is my objection with the government 
owning right next to us, because their backlog right now on 
managing properties is $11.3 billion--I will repeat, $11.3 
billion in maintaining and managing the public lands 
efficiently and effectively.
    If they partner with the state, and the state has a major 
role to play, then I think governing at the local level is much 
better than governing from Washington.
    Dr. Hice. Thank you for that answer.
    Mr. Chairman, I will yield the remainder of my time to you.
    Dr. Wittman. Thank you, Mr. Hice. And I want to thank all 
of our witnesses for joining us today.
    Governor, I appreciate your frustration with different 
levels of Federal Government. In fact, I experienced some of 
the same. But I do want to thank Representative Pingree for 
putting forth this bill. I do think that there are 
opportunities here for us to cut through some of that, and make 
sure that there is some ability for us to work together with 
the various Federal agencies, maybe even focus down to a single 
one, and to get some of these things done.
    I just held a town hall in a working waterfronts area in my 
district last week, and had over 300 people show up. They were 
livid because we had the Coast Guard come in to a channel there 
that is used by our watermen, and they started taking out aids 
to navigation because there was an area there that was not 
dredged to their satisfaction. So, rather than talking to 
folks, they came in.
    We were able to stop it midstream. I think there are some 
things that we can do, working with the locality, to put some 
private aids to navigation in. But again, that is another 
situation where the Corps of Engineers in charge of the 
dredging, the U.S. Coast Guard, the county, the state, the 
Marine Resources Patrol, all those folks have to be talking to 
each other instead of going in and saying, ``Well, in our 
little silo we have a responsibility for safety of 
navigation,'' and we are going to make that judgment, instead 
of saying, ``Well, if you did this little bit here, you could 
actually take out this part of the channel, and actually open 
this up so we didn't have to spend all this money to take it 
out.'' So, listen, I fully understand that.
    There is also another part of this realm that all of us, I 
believe, have to work on. My son is a commercial fisherman. He 
is in my ear every day about the things that he has to deal 
with. He crabs, he oysters, he gillnets, he pound nets, he does 
it all because he cannot make a living in any one particular 
area. And he gets frustrated.
    He lives in a particular area, stored his crab pots there 
and other things, and was told by the county he could not store 
them there, so now he has relegated to say, ``Well, where do I 
go?'' He has to go to the water in order to be able to do that, 
and then he is saying, ``Dad, look at what I have to go through 
in order to purchase that piece of property.'' So, highest and 
best use there, and making sure, too, that there is a balance 
in our waterfront communities.
    Listen, I am all for folks having a home on the water. We 
heard everybody here about that nice frame of mind that comes 
with living there. But I would argue, too--and I think you 
would agree with me--that the value of our waterfront 
communities is not just in the residential side, but it is also 
in the connection to the commercial fishing side that makes 
those communities desirable for people to move to. So, I think 
our effort there is to try to find ways for us to be able to 
accomplish that.
    With that, I want to make sure that we all understand the 
things that we can do together. And, Mr. Callender, I 
appreciate your perspective there on what we can do at the 
Federal level, and look forward to working with everybody 
through this.
    I will now yield to Ms. Pingree for her questions.
    Ms. Pingree. Thank you, Mr. Chair, and thank you for being 
a participant in this. I think all kinds of wonderful questions 
have already been asked. And I too want to thank the panelists.
    Governor, you and I don't agree on every single part of 
this, but I think it is a real testimony to your belief in the 
importance of working waterfronts that you took a day out of 
your busy week in a challenging week in the state of Maine to 
be here with all of us.
    And a thank-you to Dr. Snyder for the work the Island 
Institute has been doing, and Dr. Callender for giving us a 
little perspective.
    There are a lot of things that have been brought up here 
that I think are really an important part of the discussion. 
You submit a bill and you work on it to the best of your 
ability, and then you hope the Committee will, in its wisdom, 
figure out what is a good balance.
    I think many of the things that have been brought up today 
are completely reasonable, particularly around making sure 
there is literally just one agency. I think that is a very good 
point, and I appreciate you bringing it up.
    This is not in the bill, but I also wanted to say I really 
appreciate when the Governor reminded all of us that it is nice 
to have the language, but it is really good to have the 
funding, because there is nothing worse in a state than an 
unfunded mandate. And as a former state legislator, I 
sympathize with all the issues you have to deal with.
    And while there may be many more programs--I have never 
seen the list of 80, but I appreciate that perspective. I have 
never seen them all, but 80 funding streams, I think if there 
were, we would try to take advantage of them and certainly look 
at that.
    So, I guess my question to all of you would really be, in 
terms of coastal zone management, sea grant--Dr. Callender, you 
probably have some experience with this, and Rob Snyder, but 
also, if you want to weigh in, Governor, certainly do--but just 
in focusing this down, the idea of better planning, a little 
more coordination. Frankly, I think Maine is a real testimony 
to how much has been done, the funding that has been available, 
the working waterfront money that has been there. But I think 
anybody who works on the waterfront would say, ``Boy, we would 
like to have more resources because, as land gets more valuable 
and more gets taken off the tax rolls, this is increasingly 
important.''
    In your perspectives, and maybe particularly Dr. Callender, 
since you work with this, how can we best use coastal zone 
management, the sea grant programs, and see this as an 
enhancement, as you kind of recommended?
    Dr. Callender. Sure, I will take a stab at that. I think 
part of the value of both the Coastal Zone Management Act and 
its program is the establishment of broad coastal management 
policies. But then, we work with the states. It is a Federal-
state partnership, and partnership is the key word here. Work 
with the states to help them tailor programs to meet their 
needs, to meet local needs.
    One of the things that we can provide on the Federal side 
is data, tools, technical assistance, and support, funding when 
we have the appropriations to do so. But the key here really is 
talking to folks on the ground.
    A hallmark of the sea grant program is research, it is 
advisory services, it is education. The advisory services are 
basically boots on the ground that can work with local 
communities, understand their needs, and help them meet those 
needs. I think there is room, as the Chairman mentioned, for 
compromise, and that dialogue back and forth. And I think that 
is the hallmark of both of these kinds of programs, and it is 
certainly the intent.
    Dr. Snyder. I think one of the remarkable learnings that I 
had in the early years of trying to design this programming was 
how important it was to have state agency representatives, 
private industry representatives, and the non-profit sector 
working together to solve this problem at the state level.
    We were designing a state program very much with everyone 
at the table. And I feel like one of the interesting 
opportunities with a very targeted source of funding like this 
is to design it in a way that it actually catalyzes a very 
specific kind of discussion about how to create--it is actually 
quite a bit of work to get one of these wharfs preserved, 
right? It took a lot of work from sea grants, law offices, and 
advisors from all over the country to help us figure out how to 
make it so that you could actually accomplish with a working 
waterfront what you could with forestry and farming. And I 
just----
    Ms. Pingree. Could I just give the Governor the last 30 
seconds? You can have the last word, because I am quite sure 
Dr. Snyder and I will keep working on this.
    Dr. Snyder. Yes.
    Governor LePage. I would just like to leave you with this 
thought. Back when the Federal Government closed a few years 
ago--we have Federal lands in Maine, and within the Federal 
lands is a state park which has a commercial fishing dock. And 
we have an agreement with the Federal Government to manage 
those Federal lands plus the park. But when the Obama 
administration shut down, they closed the park and closed the 
dock. I thought that was really bad. And what I did was I 
reopened it, at the dismay of the President, and sent the 
fishermen working.
    Be cautious of some of the things you do. If there is going 
to be a partnership--and I do agree with everything about 
partnership--very, very, very important. But the partnerships 
have to go both ways.
    Ms. Pingree. And we remember that time when the fishing 
dock had to be reopened, and I know the fishermen were very 
happy for that. I remember the Republicans shutting down the 
government, not the President. But those are just one of those 
things we see differently.
    Governor LePage. Well, he shut down the park, because he 
notified me that people could not go in, and the buck stops at 
the big guy.
    Ms. Pingree. It is true, it was his responsibility. Again, 
thank you for being here. Thank you for giving me a chance to 
engage in the conversation.
    Dr. Wittman. Absolutely, Ms. Pingree, thank you.
    I want to thank all of our witnesses: Governor LePage, Mr. 
Velasquez, Dr. Callender, Dr. Snyder, and Mr. Millar. Thank you 
all so much for spending your time here today. I think this was 
a really constructive conversation to find out what we can do 
to help these communities. I think we all have the same end in 
mind, and that is to make sure we get where we need to be, and 
do that in ways that respect and honor the sovereignty of local 
and state governments, and make sure we don't make things too 
complicated at the Federal level. I really appreciate that.
    Again, I would like to thank you today for your valuable 
testimony. Members of the Subcommittee may have additional 
questions for the witnesses, and we would ask that you respond 
to those in writing if you receive those questions.
    Under Committee Rule 3(o), members of the Committee must 
submit questions to the Clerk within 3 business days following 
the hearing, and the hearing record will be held open for 10 
business days for these responses.

    If there is no further business to come before the 
Committee, without objection the Subcommittee stands adjourned.

    [Whereupon, at 12:07 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Gosar Submissions

    --  Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Thomas Buschatzke, Director of the 
            Arizona Department of Water Resources in support of 
            S. 140. Dated October 30, 2017.

    --  Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from David C. Roberts of the Salt River 
            Project in support of S. 140. Dated October 30, 
            2017.

Rep. Grijalva Submissions

    --  Press Release on H.R. 1176 from the Marine Fish 
            Conservation Network (www.conservefish.org) titled, 
            ``Network Applauds Congress' Support for America's 
            Working Waterfronts.'' Dated November 2, 2017.

    --  Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Robert B. Rheault, Executive Director 
            of the East Coast Shellfish Growers Association in 
            support of H.R. 1176. Dated October 31, 2017.

    --  Letter addressed to Chairman Lamborn from the owners of 
            Millers' Wharf in support of H.R. 1176. Dated 
            November 2, 2017.

    --  Letter from Nicole Faghin and Jack Wiggin, Co-Chairs of 
            the National Working Waterfronts Network in support 
            of H.R. 1176. Dated November 1, 2017.

    --  Letter addressed to Chairman Lamborn from Jon P. 
            Jennings, City Manager, Executive Department of 
            Portland, Maine in support of H.R. 1176. Dated 
            November 1, 2017.

                                 [all]
                                 
                                 
                                 
</pre></body></html>
